<html>
<title> - THE OBAMA ADMINISTRATION'S CLIMATE CHANGE POLICIES AND ACTIVITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   THE OBAMA ADMINISTRATION'S CLIMATE CHANGE POLICIES AND ACTIVITIES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                           Serial No. 113-82




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-109 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
BILL CASSIDY, Louisiana              JOHN BARROW, Georgia
PETE OLSON, Texas                    DORIS O. MATSUI, California
DAVID B. McKINLEY, West Virginia     DONNA M. CHRISTENSEN, Virgin 
CORY GARDNER, Colorado                   Islands
MIKE POMPEO, Kansas                  KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN D. DINGELL, Michigan (ex 
H. MORGAN GRIFFITH, Virginia             officio)
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)


















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     7
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     8

                               Witnesses

Ernest J. Moniz, Secretary, Department of Energy.................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................   204
Regina McCarthy, Administrator, Environmental Protection Agency..    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................   219

                           Submitted Material

Report, ``The President's Climate Action Plan,'' dated June 2013, 
  Executive Office of the President, submitted by Mr. Whitfield..    39
Invitations, dated August 6, 2013, and follow-up requests, dated 
  September 4, 2013, submitted by Mr. Whitfield..................    60
Hearing memorandum, dated September 16, 2013, submitted by Mr. 
  Whitfield......................................................   108
Supplement, dated September 2013, ``Explaining Extreme Events of 
  2012 From a Climate Perspective,'' Bulletin of the American 
  Meteorological Society, Vol. 94, No. 9, submitted by Mr. 
  Whitfield \1\
Charts from report, ``International Energy Outlook 2013,'' dated 
  July 2013, Energy Information Administration, submitted by Mr. 
  Whitfield......................................................   113
Article, ``Making Energy Access Meaningful,'' dated Summer 2013, 
  by Morgan Bazilian and Roger Pielke, Jr., Issues in Science and 
  Technology, submitted by Mr. Whitfield.........................   116
Report, dated September 17, 2013, ``Revolution Now: The Future 
  Arrives for Four Clean Energy Technologies,'' Department of 
  Energy, submitted by Mr. Tonko.................................   135
Letter of September 11, 2013, from Jon Bruning, Attorney General, 
  State of Nebraska, to Gina McCarthy, Administrator, 
  Environmental Protection Agency, submitted by Mr. Terry........   161
Report, dated August 8, 2013, ``Human and natural influences on 
  the changing thermal structure of the atmosphere,'' by Benjamin 
  D. Santer, et al., submitted by Mr. Waxman.....................   180

----------
\1\ Internet link to the supplement is on page 112.

 
   THE OBAMA ADMINISTRATION'S CLIMATE CHANGE POLICIES AND ACTIVITIES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2013

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Scalise, Hall, 
Shimkus, Pitts, Terry, Burgess, Latta, Olson, McKinley, 
Gardner, Pompeo, Kinzinger, Griffith, Barton, Upton (ex 
officio), McNerney, Tonko, Engel, Green, Capps, Doyle, Barrow, 
Matsui, Christensen, Castor, Dingell (ex officio), and Waxman 
(ex officio).
    Also present: Representative Schakowsky.
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Press Secretary; Shawn 
Bonyun, Communications Director; Matt Bravo, Professional Staff 
Member; Allison Busbee, Policy Coordinator, Energy and Power; 
Patrick Currier, Counsel, Energy and Power; Tom Hassenboehler, 
Chief Counsel, Energy and Power; Brandon Mooney, Professional 
Staff Member; Gib Mullan, Chief Counsel, Commerce, 
Manufacturing, and Trade; Mary Neumayr, Senior Energy Counsel; 
Andrew Powaleny, Deputy Press Secretary; Peter Spencer, 
Professional Staff Member, Oversight; Tom Wilbur, Digital Media 
Advisor; Phil Barnett, Democratic Staff Director; Alison 
Cassady, Democratic Senior Professional Staff Member; Greg 
Dotson, Democratic Staff Director, Energy and Environment; 
Bruce Ho, Democratic Counsel; Roger Sherman, Democratic Chief 
Counsel; Ryan Skukowski, Democratic Staff Assistant; and 
Alexandra Tietz, Democratic Senior Counsel, Energy and 
Environment.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call this hearing to order 
this morning. Today, the subcommittee is having a hearing to 
explore President Obama's Climate Change Action Plan. And I 
certainly want to thank Secretary of Energy, Mr. Moniz; and 
Gina McCarthy, our new Administrator at the Environmental 
Protection Agency, for joining us this morning. And I want to 
be sure we start the clock so that I don't speak forever 
because that would be pretty boring for everybody. But I did 
want to thank you two for being with us this morning.
    I will tell you that I am extremely disappointed. We sent 
letters to the Department of Agriculture, Department of 
Defense, Health and Human Services, Department of the Interior, 
Department of State, Transportation, Ex-Im Bank, National 
Aeronautics and Space Administration, National Oceanic and 
Atmospheric Administration, Office of Science and Technology 
Policy, and the U.S. Agency for International Development 
because they are very much involved in this Action Plan as 
well, and they did not send witnesses to testify.
    Now, in June of this year, President Obama went to 
Georgetown University and he gave his speech in which he 
announced a Climate Change Action Plan for America. And in that 
speech he mentioned that he was tired of excuses for inaction. 
Now, I am just going to tell you I take exception to that 
because in his Action Plan he included many of the component 
parts of the cap-and-trade legislation that was considered by 
the Congress in 2009, the Waxman-Markey bill. And that 
legislation passed the House but it did not pass the U.S. 
Senate. So, rather than inaction on the part of Congress, 
Congress made a decision, and that was that it did not want to 
adopt that legislation.
    So I understand the President's view on climate change. And 
I would like to predicate this by saying worldwide 
CO<INF>2</INF> emissions last year amounted to 800 gigatons. Of 
that, 30 gigatons are caused by humans. That is 3.75 percent of 
all worldwide emissions come from human activity. So the 
question becomes if you have a broad spectrum of action on this 
plan, and we know that it is one of the President's priorities 
and we know that in the last 4 or 5 years we spent $70 billion 
on climate change, this year we expect to spend $22 billion.
    So what we are focused on this morning is we want to know 
more about the plan. Is it going to contribute to higher energy 
costs? Is it going to raise unemployment rates? Is it going to 
create obstacles to economic growth? Is it going to have an 
impact on our ability to compete in the global marketplace?
    And I specifically wanted to read from some headlines in 
newspapers around Europe and elsewhere about this issue. And 
all of these were within the last 3 months. ``Support for the 
European Union's climate and energy policy eroded further 
Friday as the Czech Republic became the latest member to 
denounce subsidies for clean but costly renewable energy and 
pledged to use more fossil fuels.'' ``Europe's industry is 
being ravaged by exorbitant energy costs.'' ``Europe's quixotic 
dash for renewables is pushing electricity costs to untenable 
levels.'' ``We can't sacrifice Europe's industry for climate 
goals that are not realistic.'' ``The European Union's energy 
and climate policy is in disarray and losing credibility.'' 
``Utilities are turning to coal and cheap lignite, emitting 
more CO<INF>2</INF> than ever.'' ``Europe faces a crisis in 
energy cost.''
    As you know, the new government in Australia, as their 
first order of business, have decided to repeal the carbon tax 
legislation. They also plan to abolish the Climate Commission, 
the Clean Energy Finance Corporation, and the Climate Change 
Authority.
    Now, so far in the year 2012, 375 coal units at power 
plants in America are closing, 294 of them because of EPA 
regulations. In the first half of 2013, 151 coal mines in 
America have closed.
    So this is a discussion today that we recognize we have 
different views on, but we are trying to make a sincere effort 
to understand the ramifications, the impact of climate change. 
As a Congress, we have the responsibility, with all of this 
money being spent, to get a better feel of what is the 
government really doing? Because it is comprehensive. It 
spreads throughout the entire government. And this hearing is 
about how we want to know what is going on, and we are going to 
back to every one of those agencies that I mentioned earlier, 
whether we sit down with them individually or as a committee. 
We want to know and understand precisely what is going on.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    In late June, President Obama released his Climate Action 
Plan, which broadly outlined a variety of executive actions for 
Federal agencies to implement the administration's climate 
policies.
    On August 6, I wrote thirteen of these agencies, including 
the White House science advisor's office, requesting testimony 
and specific information about each agency's climate-related 
activities and the coordination of that activity across the 
Federal Government.
    Despite six weeks' notice, we will not get many answers 
today. Eleven agencies requested to testify--twice, I might 
add--did not provide a witness or submit information about 
agency activity to the subcommittee. That does not send a 
positive message for increased public understanding of what 
this administration is doing on an economically consequential 
policy matter.
    The point of my request was for the subcommittee to examine 
the scope of Federal climate change actions that have been 
tolling billions of dollars a year in spending and countless 
man-hours of work since the mid-1990s, reaching over $22 
billion this year alone. The State Department reports that over 
the period 2010-2012, the U.S. provided over $7.5 billion in 
foreign assistance to address climate change.
    This is an oversight hearing. Congress needs specific 
information from the administration to evaluate the Federal 
Government's current and planned regulatory actions. Without 
this information, the public is left out of the debate, without 
knowing the extent of agency activity, whether it effectively 
addresses the established risks, or what it really will 
accomplish.
    Whatever you think about managing future climate or global 
warming risks, oversight of theadministration's plans to 
respond to those risks is critical for Congress to make sound 
economic and policy decisions. Federal agencies must account 
transparently for the effectiveness and impact of their 
actions--especially when a number of these actions collide 
directly with Americans' efforts to develop our diverse energy 
resources, which are so vital to economic strength and 
competitiveness.
    Today we will hear from the heads of two Federal agencies, 
who I have a high respect for, Secretary of Energy Ernest Moniz 
and EPA Administrator Gina McCarthy--both of whom are aware of 
my serious concerns with the direction of the administration's 
climate change policies, especially those being implemented by 
the EPA.
    The President's global warming agenda being implemented 
through the EPA has been holding back the economy which 
continues to struggle. Since 2009, the agency has been busy 
imposing costly requirements on coal-fired electricity and 
other fossil fuels while targeting manufacturers with new 
regulatory burdens, only increasing to the economic 
uncertainty. This week, EPA is expected to release their 
proposal to control greenhouse gas emissions from power plants, 
one that is almost certain to further the economic uncertainty 
facing our Nation's utilities and have devastating effects on 
our communities and most importantly, the consumers who pay 
their electricity bills every month.
    In my view, this is not a sound economic and climate 
policy. There is a better path forward, one that stops treating 
affordable domestic energy and a strong economy as part of the 
problem and embraces them as a vital part of the solution.
    In a number of subcommittee hearings we have explored the 
ingredients for U.S. economic resurgence. This resurgence in 
good part depends upon access to affordable and reliable 
electricity, energy diversity, and embracing the tremendous 
opportunities presented with our new-found oil and natural gas 
abundance.
    We've begun to see early fruits of what this resurgence 
could be in the tremendous jobs creation and economic vitality 
from the shale gas revolution. IHS Global Insight recently 
reported that this energy revolution has already increased 
average household income by an average of $1,200 in 2012, a 
figure that is projected to grow to $2,700 in 7 years. 
Households are spending less on electricity and less on goods 
and services within the broader economy, all because of less 
expensive energy.
    Building on this momentum, we should set policies that 
ensure energy access and establish prudent future planning, 
through electric grid reliability, expanded energy 
infrastructures of pipelines, roads, ports, increased R&D for 
energy, agriculture, and increased coal, LNG, and nuclear 
exports that carry U.S. energy access the world over.
    Last week, a delegation from Bangladesh visited me to 
explain their need for U.S. expertise and help particularly in 
gaining access to coal-fired electricity. With only about 47 
percent of their population having access to electricity, 
Bangladesh is one of the most energy poor nations on the 
planet, and one particularly susceptible to extreme weather 
events, but the World Bank, reflecting the administration's 
climate policy, had recently turned down funding for 
Bangladeshi coal development. So today, I hope we can examine 
how agency priorities meet our positive vision and agenda for 
economic growth.
    I recently read an article that stated that the arctic ice 
had nearly a million more square miles of ocean covered with 
ice than at this time last year. But, this hearing is not about 
the failure of predictions that summer arctic would be ice-free 
by this year, the 15-year pause in global temperature rise, or 
the rush to call every horrible weather disaster an omen of 
climate doom. Clear away the gloom and doom tactics and there 
are serious issues to address, such as what is needed to build 
our economy or to bring meaningful energy access to Bangladesh, 
but you have to be serious about it. I look forward to hearing 
from our two agencies today on exactly what the 
administration's climate plan entails for a vision of economic 
resurgence and energy access to all.

    Mr. Whitfield. So, once again, Mr. Secretary and Madam 
Administrator, thank you for being with us.
    At this time, I would like to recognize the gentleman from 
California, Mr. Waxman, for his opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    Today's hearing is the first time in a long time that this 
committee is holding a hearing on climate change. I welcome 
this hearing, and I want to commend Chairman Upton and Chairman 
Whitfield for holding it. Climate change is the biggest energy 
challenge we face and a clear and present danger to the United 
States and to the world.
    I also commend the administration for sending Energy 
Secretary Ernie Moniz and EPA Administrator Gina McCarthy to 
testify. It is unusual to have two Cabinet Secretaries 
testifying at a subcommittee hearing. Your presence makes it 
clear how seriously the administration is taking this hearing.
    As Secretary Moniz explains in his statement, the 
scientific evidence is overwhelming. That is why the President 
released a comprehensive Climate Action Plan in June. His plan 
is reasonable, it is affordable, and it will protect our 
atmosphere for our children and future generations. It will 
make our country the global leader in the clean energy economy 
of the future.
    In past hearings and markups and in debates on the floor, 
Republicans on this committee and in the House have opposed 
many elements included in the President's plan. Last Congress, 
the House voted 53 times to block action on climate change.
    This Congress, the House has already voted to slash funds 
for research into clean energy and energy efficiency. House 
appropriators voted to eliminate funding for international 
negotiations on the climate treaty. And our committee even 
refused to listen to the scientists. Over the last 2 years, 
subcommittee Ranking Member Rush and I have written 27 letters 
requesting hearings on climate change. And until today, no 
hearing was ever scheduled. I hope today will mark the start of 
a change in approach.
    That is why my question for House Republicans is simple. 
What is your plan? If you don't like the President's plan, what 
is your proposal? The President has said he is willing to 
listen to other ideas for protecting our planet and fulfilling 
our moral obligation to future generations. What are yours?
    Yesterday, I held a forum with the members of the Safe 
Climate Caucus to hear from Americans who are already 
experiencing the impacts of climate change. From California to 
New York, from Iowa to Texas, we heard stories of wildfires, 
droughts, floods, sea level rise, and record temperatures. 
Their accounts were moving and powerful. These extreme weather 
events are happening now and they are costing lives, destroying 
livelihoods, eliminating jobs, creating billion-dollar disaster 
relief legislation.
    We need to start addressing this enormous threat now. The 
longer we wait, the more damage we will cause, the more deeply 
we will need to cut carbon pollution, the bigger the bill will 
be for taxpayers, and the further we will fall behind China and 
Germany in the race to develop the new energy technologies of 
the future.
    The President was right. We don't have time for another 
meeting of the Flat Earth Society. Saying no to every solution 
is not a plan. Doing nothing is not a plan. If all the 
Republicans on this committee do today is criticize, they are 
either denying the science or ignoring it. No one can accept 
what the scientists are telling us and fail to support a plan 
of action.
    That is why I hope we can move past denial and start a 
constructive dialogue. Secretary Moniz and Administrator 
McCarthy have both told me they want to work with the 
stakeholders in implementing the President's plan. They would 
welcome working with Congress, especially with this committee, 
which has vast jurisdiction over our Nation's energy policies.
    We should listen closely to their testimony today. Where we 
disagree, let's offer alternative solutions. The climate clock 
is ticking and too much is at stake for more politics as usual.
    Thank you, Mr. Chairman, for this chance for an opening 
statement.
    Mr. Whitfield. Thank you, Mr. Waxman.
    At this time, I would like to recognize the chairman of the 
full committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today's hearing is about oversight of the President's 
climate change policies and activities, and it is disappointing 
that 11 agencies, which had ample notice to identify witnesses, 
including scientists, and work with staff to accommodate them 
on different panels, chose instead to decline our request. 
Climate policy is a central feature of this administration's 
energy policy, and given the tens of billions of dollars 
currently being spent on climate activities, there is no good 
reason for so many agencies to decide that they cannot testify 
before this committee.
    When the administration first attempted to impose its 
climate policies on the American public through the cap-and-
trade legislation, we needed a reality check, and at that time, 
it was noted that without meaningful international 
participation, jobs and emissions would simply shift overseas 
and there would be no meaningful impact on global carbon 
emissions, or the temperature changes that may result from 
those emissions. Other nations would continue to seek to grow 
their own economies and would naturally take advantage of U.S. 
economic and manufacturing weakness. And we heard that first 
hand in this committee.
    Last week, the Labor Department reported that there are 
still 11.3 million people unemployed, including 4.3 million 
long-term unemployed, and 7.9 million ``involuntary'' part-time 
workers, whose hours have been cut back or are unable to find 
full-time jobs. It makes no sense to impose an ineffectual and 
economically harmful energy policy, one I would remind folks 
that was rejected through the front door here in the Congress 
by Senate Democrats.
    Unfortunately, the administration is now working to 
circumvent Congress through the backdoor, seeking to regulate 
what it was unable to legislate no matter perhaps what the cost 
to jobs and the economy really is. Thoughtful oversight is 
necessary so that the public can understand more clearly what 
is happening and what the impacts of the administration's 
climate policies may be. And I believe that it is a disservice 
to the public to suggest a policy approach will meaningfully 
address climate risks when in fact it will not, despite tens of 
billions of dollars spent and countless jobs lost.
    So today, with the help of the private innovation and 
America's newfound energy abundance, the U.S. indeed is the 
envy of the world as it relates to energy access and the safe 
and responsible development of energy resources. We stand at 
the very threshold of profound economic opportunity for the 
Nation and its future generations.
    So we should pursue constructing a new architecture of 
abundance as a central feature for future economic strength and 
to provide the economic foundation to address climate risks. 
There should be no question that the economic wherewithal 
fostered by America's energy resurgence will provide a wide 
avenue for innovation that will answer energy and environmental 
challenges of the future.
    Yes, it is good to have Secretary Moniz and Administrator 
McCarthy before us this morning. You two stand at the center of 
energy policy in this Nation and your agencies will play either 
positive or negative roles to ensure a strong, vibrant, and 
innovative energy sector in the future.
    My interest is to understand how you intend to address the 
new realities of American energy abundance, and what your 
respective agencies' roles should be in promoting access to 
abundant, affordable energy resources that are so necessary to 
meeting future challenges in making our Nation more 
competitive. I look forward to having that discussion.
    And I yield back my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing is about oversight of the President's 
climate change policies and activities. It is disappointing 
that 11 agencies, which had ample notice to identify witnesses, 
including scientists, and work with staff to accommodate them 
on different panels, chose instead to decline our request. 
Climate policy is a central feature of this administration's 
energy policy, and given the billions of dollars currently 
being spent on climate activities, there is no good reason for 
so many agencies to decide they cannot testify before this 
committee.
    When the administration first attempted to impose its 
climate policies on the American public via cap-andtrade 
legislation in 2009, we needed a reality check.
    At that time, it was noted that without meaningful 
international participation, jobs and emissions would simply 
shift overseas--and there would be no meaningful impact on 
global carbon emissions, or the temperature changes that may 
result from those emissions. Other nations would continue to 
seek to grow their own economies and would naturally take 
advantage of U.S. economic and manufacturing weakness.
    Last week the Labor Department reported that there are 
still 11.3 million people unemployed, including 4.3 million 
long-term unemployed, and 7.9 million ``involuntary'' part-time 
workers, whose hours have been cut back or are unable to find 
full-time jobs.
    It makes no sense to impose an ineffectual and economically 
harmful energy policy--one I would remind folks that was 
rejected through the front door here in Congress by Senate 
Democrats. Unfortunately, the administration is now working to 
circumvent Congress through the back door--seeking to regulate 
what it was unable to legislate no matter what the cost to jobs 
and the economy. Thoughtful oversight is necessary so the 
public can understand more clearly what is happening, and what 
the impacts of the administration's climate policies may be. 
And I believe it is a disservice to the public to suggest a 
policy approach will meaningfully address climate risks when in 
effect it will not, despite tens of billions of dollars spent 
and countless jobs lost.
    Today, with the help of private innovation and America's 
newfound energy abundance, the U.S. is the envy of the world as 
it relates to energy access and the safe and responsible 
development of energy resources. We stand at the threshold of 
profound economic opportunity for the Nation and its future 
generations.
    We should pursue constructing a new architecture of 
abundance as a central feature for future economic strength and 
to provide the economic foundation to address climate risks. 
There should be no question that the economic wherewithal 
fostered by America's energy resurgence will provide a wide 
avenue for innovation that will answer energy and environmental 
challenges of the future.
    It is good to have Secretary Moniz and Administrator 
McCarthy before us this morning. You two stand at the center of 
energy policy in this Nation and your agencies will play either 
positive or negative roles to ensure a strong, vibrant, and 
innovative energy sector in the future.
    My interest is to understand how you intend to address the 
new realities of American energy abundance, and what your 
respective agencies' roles should be in promoting access to 
abundant, affordable energy resources that are so necessary to 
meeting future challenges. I look forward to having that 
discussion.

    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from New York, Mr. 
Tonko, for a 5-minute opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And thank you, Chair 
Whitfield, for holding this very important hearing.
    The International Panel on Climate Change will soon issue 
its latest report summarizing the findings of recent climate 
science. That report is likely to reiterate the message they 
sent us 5 years ago. Greenhouse gases continue to rise in the 
atmosphere, the planet is warming, sea level is rising, and a 
significant degree of this change is attributable to human 
activities. We are seeing the impacts already. Higher sea 
levels create more perilous conditions when hurricanes approach 
the coast. Higher temperatures enhance drought conditions, 
creating significant losses for farmers and ranchers and set 
the stage for more intense, widespread forest fires.
    Our infrastructure, our communities, and our economy are 
all vulnerable to these changes. Add to these facts that our 
infrastructure is aging and we are neglecting to maintain the 
very systems that we rely on to support a modern, thriving 
society. We can continue along our current path leaving State 
and local governments to fend for themselves, patching things 
together as they wear out, are damaged, or are destroyed. Or we 
can use the tremendous intellectual and entrepreneurial 
resources that we have to address the challenge of climate 
change.
    Our current path of inaction leaves tremendous 
opportunities for job creation, for social progress, and for 
economic growth untapped. It wastes resources, especially human 
resources. President Obama realizes this and has offered a 
modest, balanced plan to reduce greenhouse gases and to rebuild 
and redesign the modern and resilient infrastructure that we 
require for the future.
    The administration's plan seeks to realize the potential of 
new, cleaner energy technologies. At the same time, the plan 
recognizes the important role that fossil fuels play in our 
economy. We continue to use these fuels, as will other nations, 
but that does not mean we need to use them inefficiently or 
without regard to the increasing risk that they pose for the 
future of our planet.
    Our citizens could be employed building our 21st century 
transportation, energy, and water infrastructure. Our 
manufacturers could be supplying the parts and equipment for a 
modern electric grid, a high-speed rail, wind farms, combined 
heat and power systems, energy-efficient vehicles, fuel cells, 
and advanced batteries. Other nations are moving forward 
incentivizing and assisting their industries and positioning 
themselves and their citizens for the future. They are thinking 
long-term while we subject to our Nation to unnecessary 
austerity and an endless series of stop-gap funding bills. This 
is not the bold and inspired thinking that created this Nation 
and made it the great nation that it is.
    No one set out to change the chemistry of our atmosphere 
and a set our planet on a new climate trajectory, but it has 
happened and we must act, act now to slow this process and 
adapt to the new conditions. The President's plan is a fine 
start. I am very pleased that we have Secretary Moniz and 
Administrator McCarthy here with us today. These two officials 
and their agencies are tasked with a great deal of 
responsibility for making this plan a success. Thank you both 
for being here this morning. I hope this is not our last 
hearing on this topic and that we will have additional 
opportunities to hear from other Federal agencies. There is a 
lot of work to do and we have wasted too much time already.
    Thank you again, Chair Whitfield, for holding this very 
important hearing, and with that, I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, we 
will begin with Secretary Moniz, 5 minutes for his opening 
statement. And once again, Mr. Secretary, thanks for joining us 
this morning. Be sure and turn your microphone on.

STATEMENTS OF ERNEST J. MONIZ, SECRETARY, DEPARTMENT OF ENERGY; 
 AND REGINA MCCARTHY, ADMINISTRATOR, ENVIRONMENTAL PROTECTION 
                             AGENCY

                  STATEMENT OF ERNEST J. MONIZ

    Mr. Moniz. Thank you. Thank you again, Mr. Chairman, and 
Ranking Member Waxman, members of the committee. Thank you for 
the opportunity to speak about the President's Climate Action 
Plan and in particular the DOE's role in its implementation.
    I will start with saying, again, the evidence is 
overwhelming; the science is clear. The threat from climate 
change is real and urgent. And the basic science behind climate 
change is simple: carbon dioxide makes the earth warmer and we 
are emitting more and more of it into the atmosphere at a rate 
that has long been understood to have a material cumulative 
impact on a scale measured in decades, not centuries.
    This increase in atmospheric greenhouse gas above all from 
the combustion of fossil fuels is affecting the climate. Carbon 
dioxide is particularly important both because of the magnitude 
of the emissions and because it is long lived in the 
atmosphere. Again, all of this was known a long time ago. What 
was not anticipated was the pace at which energy needs would 
grow to serve 7 billion people on the planet with rapid 
industrialization. Every ton we emit now irreversibly commits 
our children and grandchildren to the risk of climate 
disruption.
    Now, while we cannot attribute any particular storm, for 
example, to climate change, cumulatively, we can say that 
rising sea levels, increasingly severe droughts, heat waves, 
wildfires, and major storms are amplified by a warming climate. 
This is already costing our economy billions of dollars a year, 
and common sense and prudence demanded that we take action. So 
that is the driving force behind the President's Climate Action 
Plan, and its three pillars are to cut carbon pollution 
domestically, to prepare for the worsening impacts of climate 
change, and to lead international efforts to combat climate 
change and prepare for its impacts.
    My main focus today will be on what the U.S. can do 
domestically to reduce carbon pollution, and in particular, on 
DOE's role in the Climate Action Plan. Of course, many other 
agencies have critical roles as well. First, we must use our 
energy more intelligently. I am committed to energy efficiency 
both to achieve reductions in carbon emissions and to reduce 
energy bills for families and businesses. The Department of 
Energy also plays a central role in developing the low carbon 
technologies of the future. Coal and natural gas will remain 
significant sources of energy in the years to come, and that is 
why DOE has issued a draft solicitation for $1 billion in loan 
guarantees for advanced fossil energy technologies that reduce 
carbon emissions. In addition, DOE has already committed $6 
billion on clean coal technologies all with the goal of 
enabling the use of fossil fuels and a carbon-constrained 
world.
    Some of the most impressive energy developments in recent 
years have been in renewable energy technology. DOE recently 
released a paper called ``Revolution Now'' that outlines some 
of these critical clean energy developments for wind, solar, 
LEDs, and EV batteries. The key message is the pattern of 
dramatic cost reductions, strong government RD&D and supportive 
policy, and rapidly increasing deployment, much like the story 
of unconventional natural gas production that unfolded over the 
last 30 years.
    A clear indicator of the Nation's energy system 
transformation is the business model evolution taking place in 
the utilities sector in response to energy efficiency and 
renewable energy market trends. Changes in energy technologies 
take time, sustained investment, and stable policies. Even in 
this age of budget austerity we need to ensure that we continue 
to invest in clean energy.
    As part of the President's Climate Action Plan, the 
Department of energy will also assist in the development of the 
Quadrennial Energy Review.
    Now, while we must take action to reduce the carbon 
pollution that causes global warming, impacts from climate 
change are already here and more are on the way. Let me 
highlight just one project that demonstrates how we are 
approaching this in terms of infrastructure resilience. In the 
aftermath of Sandy, the vulnerability of our electricity and 
fuels infrastructure to severe storms and flooding was evident. 
Recently, I was in New Jersey to sign an MOU with Governor 
Christie and the New Jersey Transit Corporation to design a 
micro-grid that will provide reliable distributed power for a 
critical transportation corridor. This is an example of the 
sort of smart infrastructure we will need throughout the 
country, and this can provide a first-of-its-kind example for 
the Nation. It also exemplifies our commitment to work more 
closely with State and local governments.
    The third part of the President's plan is leading 
international efforts to address climate change. A global 
effort will be required to future climate damages. Here at DOE 
we are focused on helping countries around the world expand the 
use of clean energy, improve energy efficiency, and strengthen 
global preparedness and resilience to climate change. While the 
State Department has the lead on international negotiations 
such as phasing down HFCs, domestic clean energy success will 
allow America to lead by example and at the same time to open 
up business opportunities for U.S. companies as a huge global 
market for clean energy opens up over the next decade.
    In conclusion, history has repeatedly shown that we can 
grow the economy while making tremendous strides in reducing 
pollution. We will need our smartest scientists, our brightest 
engineers, and visionary policymakers to get this done. The 
President has put forth a smart and prudent plan to slow global 
warming, to prepare for worsening climate impacts, and to 
ensure a safer, healthier future for our children and 
grandchildren. And I might add my grandchildren are 8 and 10 
years old, so I am excited to be part of the President's plan 
to reduce the risks of climate change.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moniz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Secretary.
    And Madam Administrator McCarthy, you are recognized for 5 
minutes for your opening statement.

                  STATEMENT OF REGINA MCCARTHY

    Ms. McCarthy. Thank you, Chairman Whitfield, Congressman 
Waxman, members of the committee.
    In June, the President reaffirmed his commitment to 
reducing carbon pollution when he directed many Federal 
agencies, including the EPA, to take meaningful steps to 
mitigate the current and future damage caused by carbon dioxide 
emissions and to prepare for climate changes that have been set 
in motion.
    Climate change is one of the greatest challenges of our 
time. Over 97 percent of climate scientists are convinced that 
human-caused climate change is occurring. If our changing 
climate goes unchecked, it will have devastating impacts on the 
United States and on our planet. Responding to climate change 
is an urgent public health, safety, national security, and 
environmental imperative that presents an economic challenge as 
well as an economic opportunity. Both the economy and the 
environment must provide for current and future generations. We 
can and must embrace cutting carbon pollution as a spark for 
innovation, for job growth, clean energy, and economic growth. 
The Nation's success over the past 40 years makes clear that 
environmental protection and economic growth do go hand-in-
hand.
    The President's Climate Action Plan directs Federal 
agencies to address climate change using our existing 
authorities. The plan has three key pillars: cutting carbon 
pollution in America, preparing for impacts of a changing 
climate, and leading international efforts to combat climate 
change.
    EPA plays a critical role in the plan's first pillar, which 
is cutting carbon pollution. Over the past 4 years, EPA has 
begun to address this task. In 2010 EPA and the National 
Highway Transportation and Safety Administration along with the 
auto industry and other stakeholders, worked together to set 
greenhouse gas and fuel economy standards for model years 2012 
to 2025 light-duty vehicles. Over the life of those vehicles, 
the standards will save an estimated $1.7 trillion for 
consumers. It will cut America's oil consumption by 12 billion 
barrels and reduce greenhouse gas emissions by 6 billion metric 
tons.
    EPA and NHTSA's standards for model year 2014 through 2018 
heavy-duty trucks and buses present a similar success story. 
Under the President's plan, we will be developing a second 
phase of heavy-duty vehicle standards for post-2018 model 
years.
    Building on that success, the President asked EPA to work 
with States, utilities, and other key stakeholders to develop 
plans to reduce carbon pollution from both future as well as 
existing power plants.
    EPA will soon propose carbon pollution standards for future 
power plants, reflecting new information and the extensive 
public comment that we received on our 2012 proposal. For 
existing plants, we are already engaged in outreach to States 
and a broad group of stakeholders with expertise who can help 
inform the development of proposed standards, which we expect 
to issue in June of 2014. Using these standards, States will 
have the primary role in developing and implementing plans to 
address carbon pollution from existing plans, allowing us to 
capitalize on State leadership and innovation while accounting 
for regional diversity and providing ample flexibility.
    The plan also calls for the development of a comprehensive 
strategy to address methane emissions. EPA will work with other 
agencies to reduce these emissions through incentive-based 
programs.
    The President's plan also calls for a broad array of 
actions to strengthen America's resilience to climate impacts. 
EPA will incorporate research on impacts into implementation of 
our existing programs and we will develop information and tools 
to help decision-makers, including States, localities, and 
tribes, to better understand and address the current effects 
and the future effects that we know are coming in a changing 
climate. EPA is working closely with our Federal agency 
counterparts on building national resilience, including 
developing the National Drought Resilience Partnership, 
ensuring the security of our freshwater supplies and protecting 
our water utilities.
    The President's plan recognizes that we must couple action 
at home with leadership abroad. Working closely with the State 
Department, EPA will continue to engage our international 
partners in efforts to reduce carbon pollution through 
activities, including public-private partnership efforts to 
address methane emissions and other short-lived climate 
pollutants.
    In conclusion, the President's plan provides a roadmap for 
Federal action to meet the challenges of a changing climate, to 
promote clean energy solutions that capitalize on American 
innovation and that drive economic growth.
    Thank you again and I look forward to answering your 
questions.
    [The prepared statement of Ms. McCarthy follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    Mr. Whitfield. Thank you, Madam McCarthy.
    And before I begin my questions, I would like to ask 
unanimous consent to introduce a few relevant documents into 
the record. I would like to enter, one, the President's Climate 
Action Plan; two, the invitation letter sent to the Federal 
agencies requesting witnesses today, the majority committee 
staff hearing memorandum.
    In addition, I would like to enter the special supplement 
to the bulletin of the American Meteorological Society released 
this month and entitled ``Explaining Extreme Events of 2012 
from a Climate Perspective;'' excerpts from the Energy 
Information Administration's annual Energy Outlook 2013, 
including a chart reflecting world energy-related carbon 
dioxide emissions 1990 to 2040 and a table reflecting world 
carbon dioxide emissions by region and country for 1990 through 
2040; and finally, an article entitled ``Making Energy Access 
Meaningful'' published this summer in the National Academy of 
Sciences' publication ``Issues in Science and Technology.'' 
Without objection, the documents will be entered into the 
record.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The American Meteorological Society bulletin supplement is 
available at http://docs.house.gov/meetings/IF/IF03/20130918/
101308/HHRG-113-IF03-20130918-SD011.pdf.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. And at this time I will recognize myself for 
5 minutes of questions.
    Recently, during the August break, I spent time at some 
universities in the State of Kentucky, and in talking to 
students, one of their major concerns was trying to find a job 
upon graduation. And I started thinking about that and I went 
back and I looked at the last 62 years the unemployment rate in 
America, and the last 4 years, 2009 through 2012, the 
unemployment rate has been higher in America than at any time 
in the last 62 years except for 3 of those years.
    Now, in his speech to Georgetown University, the President 
specifically said that as we transition, try to make this 
transition, which we know cannot be done overnight, and the 
President frequently talks about an all-of-the-above policy, 
but America is the only country in the world where you cannot 
build a new coal-powered plant because the emission standards 
cannot be met because the technology is not available. And we 
know that regulations on existing plants are going to be coming 
out in 2014 in June.
    But in that speech, the President said in talking about his 
Action Plan, that we must provide special programs for people 
who lose their jobs. And as I quote it, there have been 
significant closures of electricity production plants using 
coal, and over 151 coalmines have been closed. So I would ask 
either one of you what are the special plans in the President's 
Action Plan to help address these people who are losing their 
jobs because of these policies?
    Ms. McCarthy. Mr. Chairman, let me begin. I just want to 
indicate that I think that I am sensitive and certainly the 
Environmental Protection Agency has been sensitive that as we 
pursue our mission to protect public health and the 
environment, we have to be sensitive to the economic 
consequences of our actions----
    Mr. Whitfield. Then, Ms. McCarthy----
    Ms. McCarthy [continuing]. Particularly----
    Mr. Whitfield [continuing]. Do you know specifically what 
plan is in effect? He talked about we are going to have the 
special plans to address the concerns of these people who lose 
their jobs.
    Ms. McCarthy. I am not familiar with the details of those 
plans, but I am familiar----
    Mr. Whitfield. OK.
    Ms. McCarthy [continuing]. From reading the Climate 
Action----
    Mr. Whitfield. OK.
    Ms. McCarthy [continuing]. Plan that the President----
    Mr. Whitfield. OK.
    Ms. McCarthy [continuing]. Sees this as both a challenge as 
well as an economic----
    Mr. Whitfield. OK.
    Ms. McCarthy [continuing]. Opportunity for this----
    Mr. Whitfield. Now, in looking at the organization chart 
for the Climate Action Plan, I notice that there is one chart 
under the Office of Energy and Climate Change Policy referred 
to as the Green Cabinet. How does the Green Cabinet 
differentiate from the regular Presidential Cabinet?
    Mr. Moniz. Mr. Chairman, so the Green Cabinet denotes that 
there are occasional meeting of principals from the agencies 
who have special responsibility in the climate action plan so 
we can get together and discuss coordination of programs, make 
sure there are not duplications. So it is a subgroup of the 
Cabinet who again meets periodically together with key White 
House presidential assistants to discuss the general set of 
issues----
    Mr. Whitfield. Um-hum.
    Mr. Moniz [continuing]. Around climate change.
    Mr. Whitfield. And who is the person at the Department of 
Energy responsible for the coordination of all the task forces 
relating to climate change in the government?
    Mr. Moniz. Well, of course, I consider myself as having 
ultimate responsibility----
    Mr. Whitfield. Yes, but----
    Mr. Moniz. The action officer----
    Mr. Whitfield [continuing]. You have designated a----
    Mr. Moniz. The action officer, if you like, is my Chief of 
Staff, Kevin Knobloch, who is keeping track of all of our 
responsibilities under the CAP.
    Mr. Whitfield. Kevin Knobloch?
    Mr. Moniz. Yes.
    Mr. Whitfield. And, Ms. McCarthy, who is your designated 
person for this?
    Ms. McCarthy. Again, I have ultimate responsibility. We 
have two primary components. We have a mitigation strategy, 
which we are managing out of our office in Air and Radiation 
primarily. That would be Janet McCabe, who is currently the 
acting assistant administrator. On the adaptation side, which 
is looking at climate resilience and preparedness we had our 
Office of Policy that is directed by associate administrator 
Michael Goo.
    Mr. Whitfield. Now, I noticed the GAO or in the budget 
there is $22 billion allocated for climate change Action Plan 
for 2013. How much of that money will be allocated to EPA?
    Ms. McCarthy. I am sorry. Could you repeat the question, 
Mr. Chairman?
    Mr. Whitfield. There is 22 billion planned to be spent in 
fiscal year 2013. How much of that money was allocated to EPA?
    Ms. McCarthy. I can't answer that question, sir, but I am 
happy to follow it up.
    Mr. Whitfield. OK. Do you know from the Secretary of 
Energy's position, Secretary Moniz, how much of the 22 
billion----
    Mr. Moniz. Well, I think the problem, first of all, is how 
one counts. For example, if we count our energy efficiency 
programs, which of course have the objective of saving money 
and also----
    Mr. Whitfield. OK.
    Mr. Moniz [continuing]. Would be part of the solution for 
climate change, well, then, let's add 1 billion there.
    Mr. Whitfield. OK.
    Mr. Moniz. So if we talk about all the programs that are 
helpful for climate change----
    Mr. Whitfield. Yes.
    Mr. Moniz [continuing]. Then we are talking about $5 
billion----
    Mr. Whitfield. OK.
    Mr. Moniz [continuing]. Mostly in our R&D budget, but as I 
say, most of that is for, you know, efficiency, nuclear power--
--
    Mr. Whitfield. Um-hum.
    Mr. Moniz [continuing]. Clean technologies, actually, we 
can throw in fusion. The one exception one might say is the 
substantial resources we devote to carbon capture and 
sequestration specifically to make coal competitive in a low-
carbon world.
    Mr. Whitfield. Thank you. My time is expired. I recognize 
Mr. Waxman for 5 minutes of questions.
    Mr. Waxman. Secretary Moniz, in your testimony you describe 
the dangers we face from climate change. Is it too late to 
protect the planet from the worst effects of climate change?
    Mr. Moniz. Well, first of all, I think it is clear we 
cannot avoid implications. We are seeing them today. In my view 
this decade is the critical one that we need to move out 
smartly and smartly----
    Mr. Waxman. How much time do we have?
    Mr. Moniz. Well----
    Mr. Waxman. Can we afford to wait to act?
    Mr. Moniz. It will be a long-term commitment, but we have 
to act in this decade because, as I said, the CO<INF>2</INF> 
problem is cumulative and every ton we emit, you can check it 
off against our children and grandchildren.
    Mr. Waxman. My concern is that we are facing this urgent 
threat, but all Congress is doing is getting in the way.
    This Congress has rightly been called the do-nothing 
Congress. But on climate we are doing worse than nothing. We 
are affirmatively obstructing progress.
    Administrator McCarthy, you have been accused of leading a 
war on coal. But in 2009 the President supported market-based 
legislation to make major carbon pollution reductions while 
investing $60 billion to develop clean coal technologies like 
carbon capture and sequestration, isn't that right?
    Ms. McCarthy. That is my understanding.
    Mr. Waxman. The chairman said that this is the only country 
in the world where new coal plants cannot be built. You haven't 
released any regulations to prevent coal plants from being 
built, have you?
    Ms. McCarthy. We have not, no.
    Mr. Waxman. At the time, our bill was criticized for being 
too generous to the coal industry. But virtually all the 
Republicans on this committee and the coal industry opposed the 
legislation despite its massive investment in that industry. We 
wanted to invest in innovative approaches so that coal could 
still be used, but Republicans opposed us.
    Last year, I tried a different approach. I wrote an op-ed 
calling for an emissions fee that would put a price on carbon. 
I even said that I would support using the revenues raised to 
reduce other taxes. But Republicans in the House also opposed 
this approach. Republicans outside the House, some of them, 
supported it. In fact, House Republicans opposed every idea 
that has been raised for addressing climate change.
    Administrator McCarthy, you promulgated regulations last 
Congress reducing carbon pollution from cars and trucks. House 
Republicans voted to strip you of the authority to regulate 
those emissions, isn't that right?
    Ms. McCarthy. That is my understanding.
    Mr. Waxman. They also voted to strip EPA of authority to 
regulate carbon pollution from power plants, isn't that right?
    Ms. McCarthy. That is right.
    Mr. Waxman. Secretary Moniz, I have heard some Republicans 
say that they like the idea of energy efficiency. But when I 
look at their record, they voted to block enforcement of 
requirements for energy-efficient light bulbs and they have 
reported a budget for your department for next year that would 
cut funding for energy-efficiency programs. The same is true 
for investments in research to develop the solar, wind, and 
other clean energy technologies of the future.
    Secretary Moniz, within your department there is a division 
called ARPA-E, which invests in advanced energy research 
projects. It is widely praised by the scientific and research 
communities for finding breakthrough technology. Yet this year, 
the House Appropriations Committee voted to slash its budget by 
over 80 percent, isn't that right?
    Mr. Moniz. Yes, that is correct, sir.
    Mr. Waxman. In this committee I often hear Republican 
members argue against U.S. efforts to do anything about 
reducing emissions because our Nation would be at a competitive 
disadvantage. They say we need a global approach.
    But then the House Appropriations Committee votes to defund 
the U.N. Framework Convention on Climate Change, which is the 
international body charged with negotiating an international 
climate treaty. Last Congress, House Republicans also voted to 
defund not only our international efforts but defund our 
government's lead climate negotiator.
    Add it all up, what do you have? House Republicans have 
voted against climate change legislation, they voted against 
climate regulation, they have voted against climate research 
and development, and they voted against international climate 
efforts.
    It is an appalling record. And it is why my question to 
them is, What is your plan? It is easy to criticize other 
people's solutions. But if all you do is criticize, you are 
either a climate denier because you don't think anything needs 
to be done, the science doesn't warrant it, it is not 
happening, or they are ignoring the warning of scientists. 
Secretary Moniz told us that we have a very narrow window to 
act. We should be starting to act now, and that is why we need 
to stop ignoring the scientists and start listening to them, 
Mr. Chairman.
    So tell us what your plan is, don't just criticize, because 
we are facing a serious problem not for the future but right 
now with extreme weather events.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentleman from Michigan, Mr. 
Upton, for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman.
    You know, I think that it is important as we conduct 
oversight of agency actions on climate change and energy that 
we also reflect on the statutory frameworks of the agencies 
implementing such policy. And as an example, a point that I 
like to make is, as we reflect back on DOE's energy 
coordination role, it was developed frankly back at the time of 
energy constraints, way back in the 1970s. I think you would 
agree, Dr. Moniz, that we are currently in a new era of North 
American energy abundance. Now, where I believe, and I think 
the stats will show that as well, that we can actually be 
energy independent for North America by using all of our 
resources that are available. And I would like you to comment 
on that as part of the record.
    Mr. Moniz. And certainly, Mr. Chairman, the President and I 
both are very supportive of all-of-the-above energy strategy 
within a world where we are working to reduce CO<INF>2</INF> 
emissions.
    Mr. Upton. And I know on page 10 of the President's Climate 
Action Plan, the natural gas bullet, it refers to natural gas 
as a bridge fuel. And is it the policy of DOE to consider 
natural gas as a bridge fuel?
    Mr. Moniz. Well, our policy is to do what we can to support 
clean, safe production of natural gas, and I might add also of 
so-called unconventional oil.
    Mr. Upton. So as we look at what you may be doing as an 
agency to approve or consider export applications for LNG, is 
it bridge fuel? Is that part of the discussion or the debate?
    Mr. Moniz. No, sir, that has not been part of the 
discussion to date. I mean our approach to the LNG exports is 
by law to approve them unless we rule an application as not in 
the public interest. A public interest determination has many 
facets. We have just given, as you know, another two 
applications conditional approvals recently. I should emphasize 
that the final approval will require the environmental review 
through FERC and then coming back to the Department of Energy.
    Mr. Upton. I just know as I look at the situation, 
particularly as we try to become North American energy 
independent, the new discoveries and fields that we have been 
able to find of natural gas are an exciting, positive change. 
We look at the advent of the manufacture of vehicles, passenger 
vehicles perhaps using natural gas. We look at some of the 
large fleets some of our businesses, whether they be UPS or 
AT&T and others being able to convert those vehicles to natural 
gas. I have a major manufacturer in my district, Eaton, which 
is looking at natural gas trucks for their fleet. We even look 
at locomotives, our railroads, looking at perhaps a very 
positive transition from diesel to natural gas and the work of, 
I know, Caterpillar and General Electric producing those and 
seeing if in fact it will have a very positive impact on our 
economy and to real change.
    Ms. McCarthy, does EPA consider natural gas abundance as a 
bridge fuel?
    Ms. McCarthy. EPA views natural gas abundance as a positive 
for air quality as an opportunity for us domestically to be 
safe and secure in our energy supplies. Our responsibility is 
to ensure that that is done as safely and responsibly as we can 
working with the industry.
    Mr. Upton. You know, one of the concerns that I hear, 
particularly as I talk to the railroad folks and they are 
looking at this potential change conversion to natural gas is 
that they are concerned as they look at purchasing these, if in 
fact they work, that the regulations may change, thus impacting 
the ``payback period'' as it relates to the--is EPA considering 
new regulations to do that?
    Ms. McCarthy. Any regulations that EPA would consider are 
going to be thoughtfully proposed and commented on. Right now, 
sir, I think it is safe to say that EPA is investing very 
heavily in opportunities to understand the sector, to gather 
data, to work with the industry in a collaborative way. We see 
this as a very positive collaboration moving forward. We see 
this as a significant opportunity to reduce air pollutants and 
to move forward in a safe and effective domestic supply. And so 
I am very encouraged about the relationship we are building 
with the gas industry, the rules we have already put out. I see 
no reason for concern that that situation is going to change 
and people won't be able to rely on this as a cleaner fuel 
moving forward.
    Mr. Upton. Thank you. I know my time is expired.
    Mr. Whitfield. The gentleman's time is expired. At this 
time, I recognize----
    Mr. Moniz. Mr. Chairman, may I just add a footnote with 
your permission?
    Mr. Whitfield. Yes, sir.
    Mr. Moniz. I just want to say to Chairman Upton I would add 
to your list marine applications, and also in fracking, 
replacing diesels with natural gas engines there as well, less 
oil use and better air quality.
    Mr. Whitfield. Thank you, Mr. Secretary.
    At this time I recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    I would like to explore two things in my 5 minutes. First 
is the confidence that you have that climate change is taking 
place as a significant threat and as caused by a large degree 
by human activities; and secondly, if actions taken to combat 
climate change will harm or benefit the economy. So, first, 
Secretary Moniz, would you address the first question? How 
confident are you that climate change is taking place, that it 
is a significant threat, and that it is caused to a large 
degree by human activity?
    Mr. Moniz. Well, again, first of all, of course the 
scientific community overwhelmingly endorses those statements 
and I personally do. As I have said in a previous hearing for 
this committee, I think my confidence in those statements does 
not rely just on the results of some very complicated computer 
models but some very simple arithmetic in terms of what has 
been known for a long time about the strength of 
CO<INF>2</INF>, the greenhouse effect, and that the amount that 
we are emitting is of the scale that within decades we would 
reach areas such as doubling preindustrial emissions, which 
have always been viewed as being highly, highly risky.
    Mr. McNerney. Thank you. Administrator McCarthy, I would 
like to address my second question to you in this form: How 
have higher standards such as those as fuel efficiency helped 
drive innovation and create jobs?
    Ms. McCarthy. Well, we have been working with the auto 
industry in particular over the past few years to understand 
what they need to have certainty moving forward on air quality 
standards, on fuel efficiency, on greenhouse gas standards. We 
have worked together. And as a result of our rules, we have 
been able to support the industry in a robust sort of 
reemergence of that industry both domestically and 
internationally. We are proud of the work we have done 
together. We are delivering fuel-efficient vehicles for 
consumers in the way they want them. We are saving them money. 
We are reducing greenhouse gases. And we believe we are part of 
the auto industry's efforts to gain a competitive advantage 
that is to a great advantage for jobs and economy in this 
country.
    Mr. McNerney. So you believe the Detroit has become more 
competitive with these higher fuel standards----
    Ms. McCarthy. We believe so.
    Mr. McNerney [continuing]. Thereby creating more jobs?
    Ms. McCarthy. We know that certainty is important moving 
forward. We have provided this industry a path forward until 
2025. That gives them an opportunity to do research, to develop 
new technologies, and to have a solid footing moving forward.
    Mr. McNerney. Thank you.
    Mr. Moniz. If I may just add----
    Mr. McNerney. Sure.
    Mr. Moniz [continuing]. Sir, on the auto side, I think it 
is actually even a bigger story going back to when the auto 
industry in this country looked like it was on its last legs, a 
whole combination of issues from support for GM and Chrysler 
assuming they had proper restructuring for the future, to loan 
guarantees for Ford and Nissan; Nissan built a plant in 
Tennessee because of that loan guarantee--to preparing for the 
future with electric vehicle markets and the great success 
story of Tesla, we could talk about Fisker, which we all know 
is a different issue today, but overall, this portfolio has 
taken us to an incredibly vibrant auto industry that is growing 
faster than the Chinese auto industry.
    Mr. McNerney. Are there any other technologies or items 
that energy efficiency or work toward renewable energy has 
created jobs that you would like to point to?
    Mr. Moniz. Certainly. We could go through lots and lots of 
those stories. First of all, on again the autos, Tesla is a 
story of 3,000 jobs in California. That is way above even their 
business plan. Take the solar PV business and I will go back to 
our loan guarantee program. When there was no debt financing 
available, those loans supported the first six utility-scale PV 
projects in this country. There have subsequently been 10 with 
pure private financing. That is jobs all the way from 
manufacturing, to supply chain, to the installation and 
operation.
    Mr. McNerney. Well, do you see grid modernization playing a 
role in helping reduce climate change and also in creating 
jobs?
    Mr. Moniz. Grid modernization is a very, very high 
priority. It has multiple benefits. One would be the 
integration of renewables into the system. A second is that it 
can provide with intelligence embedded in the grid. It can 
provide new consumer services and higher efficiency, lower 
bills. And finally, it will be needed, as the example I gave in 
New Jersey, to provide resilience against the extreme weather 
events that we are seeing more and more of.
    Mr. McNerney. Well, thank you. I yield back, Mr. Chairman.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I want to welcome our two witnesses and give you the red 
badge of courage for showing up. We invited 13 agencies and I 
don't know if you all drew straws and got the long straws or 
whatever, but you two are here and we are glad you are here. We 
didn't hear from Department of Agriculture, Defense, HHS, 
Interior, State Department, Transportation, Export-Import Bank, 
NASA, National Oceanic Atmospheric Administration, Office of 
Science and Technology Policy, or U.S. Agency for International 
Development. For some reason they couldn't make it, but you two 
are and you all have been here before and we are glad you all 
are both here.
    Each of you and the other 11 agencies got a letter dated 
August the 6th, 2013, asking you to attend, and it asked you to 
answer nine questions. Now, when Mr. Waxman was speaking in his 
Q&A he said that the Obama administration has spent about $60 
billion on climate change. The number I had was 70 billion, but 
we will go with Mr. Waxman's 60 billion number. And this is 
really an effort to let the Obama administration put their best 
foot forward. So we asked nine questions and I asked the staff 
if your agencies had answered these questions. And I am told 
that they had not. So I am going to read them into the record 
and then give each of you briefly a chance to see if you can 
get us these answers.
    The first question that we asked your agency was to 
describe the climate change-related research and technology 
programs that you are actively engaged in, including programs 
or activities undertaken with other Federal agencies. We didn't 
get an answer to that.
    We asked you to describe the climate change adaptation, 
mitigation, or sustainability-related activities engaged in, 
including activities undertaken with other Federal agencies. We 
didn't get an answer to that.
    We asked you to identify all the climate change-related 
interagency task forces, advisory committees, working groups, 
and initiatives in which your agency is currently participating 
and or has participated in since January of 2005, didn't get an 
answer to that.
    We asked you to identify all climate change or clean 
energy-related funding, grants, or financial assistance 
programs which your agency is currently participating or has 
participated in and the amount of climate change or clean 
energy-related funding, grants, and financial assistance 
distributed by your agencies since January of 2005, didn't get 
an answer to that.
    We asked you to identify all the climate change-related 
regulations or guidance documents, including regulations or 
standards to reduce greenhouse gas emissions issued or proposed 
by your agency since January 2005 or under development, didn't 
get an answer to that.
    We asked you to identify all the climate change-related 
international negotiations, agreements, partnerships, working 
groups, or initiatives in which you currently or have 
previously participated since January 2005, didn't get an 
answer to that.
    Provide the approximate amount of annual agency funding 
attributed to climate change activities of the fiscal years 
2005 through 2012, didn't get an answer to that.
    Describe the actions that your agency has undertaken to 
respond to the Executive Order by the President, 13514, 
including the approximate cost, personnel, and other resources 
dedicated by your agency to implement that Executive Order, 
didn't get an answer to that, Mr. Chairman.
    And last but not least, to provide a list of each sub-
agency, division, and/or program office within your agency that 
is currently engaged in climate change-related activities and 
to provide an estimate of the approximate number of your agency 
employees and/or contractors engaged part-time or full-time in 
climate change-related activities. Guess what, didn't get an 
answer to that.
    Now, Mr. Waxman has been asking this committee and the 
subcommittee to hold hearings on President Obama's climate 
change efforts all year long. We asked nine questions. We 
didn't get one straight answer. Are you trying to hide 
something? Are you embarrassed by it? Or you just don't care to 
respond to the Congress?
    Mr. Moniz. Well, I will answer first at least, Mr. Barton. 
Thank you.
    Look, I am very happy to come and discuss any and all of 
those questions. I will address a few of them now if you would 
like. Certainly, well, for the Department of Energy, for 
example, the question on regulations, et cetera, standards, 
that is clear. It is efficiency standards is what we do in this 
regard.
    In terms of the programs, as I said earlier, I would say 
our last budget, fiscal year 2013 enacted, the question is 
ambiguous, but if we take all of the programs that help address 
climate change, even if they have other objectives like 
efficiency, then that count would come to about 5.4 billion. 
But as I say, there are multiple objectives. There is fuel 
diversity, nuclear energy, fossil energy, et cetera.
    Mr. Barton. Well, my time has expired.
    Mr. Moniz. OK.
    Mr. Whitfield. And I think, Mr. Secretary, we do appreciate 
your making an effort to answer, but I do hope that you all 
would get with your staffs and try to respond to us because, as 
was indicated, we asked these questions----
    Mr. Moniz. We will do that, sir.
    Mr. Whitfield [continuing]. Some time ago and we would 
appreciate you all responding to that.
    Mr. Barton. Mr. Chairman, the point I am trying to make is 
we are trying to have a good faith effort here to have a real 
dialogue, but in order to have the dialogue, we have to have 
the facts. And we are being stonewalled, which means the 
American people are being stonewalled. These are not 
complicated questions and they are not trick questions. If the 
Obama administration has this great Climate Change Action Plan, 
every one of these questions should be able to be answered in 
detail and in glowing terms. So I would hope that you two 
representatives of the Obama administration, you know, first of 
all, both of you are good people. You are smart, you have got 
integrity, you have worked with this committee. Get us the 
straight facts and then we will have a debate with the other 
side----
    Mr. Waxman. Will the gentleman yield?
    Mr. Barton [continuing]. Over what those facts mean.
    Mr. Waxman. Mr. Barton, will you yield to me just to 
correct a statement----
    Mr. Barton. If I have time, I will be happy to yield.
    Mr. Waxman. Well, you quoted me as saying the $60 billion 
has been spent, but my statement was that we proposed $60 
billion to go to be spent under our legislation. Secondly, it 
is unprecedented to have to Cabinet-level officials who have 
the primary burden of dealing with the climate change issue 
come before a subcommittee. I hardly call that stonewalling.
    Mr. Whitfield. Actually, CRS said 70 billion over the last 
4 years but----
    Mr. Waxman. Well, we are talking about different--he quoted 
me as saying 60 billion. I wasn't saying it was 60 instead of 
70. My statement about 60 billion was what we proposed to spend 
in the cap-and-trade bill.
    Mr. Whitfield. At this time I would like to recognize the 
gentleman from Michigan, the distinguished gentleman, Mr. 
Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Administrator McCarthy, welcome back to the committee and 
congratulations on your new position as EPA Administrator.
    Ms. McCarthy. Thank you.
    Mr. Dingell. We wish you great good luck as you take on 
this new position.
    And also, Mr. Secretary, we welcome you to the committee.
    Gentlemen and ladies, these questions will be yes or no and 
I will request that you give us some additional information as 
a response after the response has been made.
    So for both of our witnesses, does EPA or the Department of 
Energy see a future for coal as a viable energy source in light 
of the impending greenhouse gas regulations? Please answer yes 
or no and then submit additional information for the record.
    Ms. McCarthy. Yes, Congressman.
    Mr. Moniz. I agree. Yes. Um-hum.
    Mr. Dingell. Now, Administrator McCarthy, I understand that 
there will be a different proposal for modified sources, i.e., 
units that have been updated, and also for existing sources 
that have not been modified. Can you tell me if EPA is reaching 
out to all stakeholders concerned about both components of the 
greenhouse gas rule? Please answer yes or no.
    Ms. McCarthy. To the best ability we can, yes, we are.
    Mr. Dingell. Would you please also, Madam Administrator, 
submit more information for the record?
    Now, is EPA thinking about a unit-by-unit compliance goal 
for the existing and modified source carbon standards? Please 
answer yes or no.
    Ms. McCarthy. We are thinking about that and a number of 
other different flexible strategies.
    Mr. Dingell. Would you submit such additional comments for 
the record as you deem appropriate?
    Ms. McCarthy. Yes, sir.
    Mr. Dingell. Now, the debate about climate change is not 
just about air but it is also about water. I am sure that both 
you and the Secretary understand this.
    Administrator McCarthy, you do all know that the Great 
Lakes contain 20 percent of the world's freshwater. Luckily, 
our water levels are up slightly this year after years of 
inadequate ice cover on the lakes and too little precipitation, 
rain and snow. Lower lake levels affect not only shipping and 
boating and recreation but also make it easier for algae blooms 
to form, endanger fish habitats, and threaten drinking water 
sources, as well as industrial and cooling water intakes. Madam 
Administrator, do you believe that the President's Climate 
Action Plan provides the direction for EPA to deal with the 
unique problems of the Great Lakes? Please answer yes or no.
    Ms. McCarthy. Yes.
    Mr. Moniz. Sir, may I----
    Mr. Dingell. Will EPA under your leadership continue to 
work with other Federal and State agencies to address climate-
related problems on the Great Lakes? Yes or no?
    Ms. McCarthy. Yes.
    Mr. Dingell. In dealing with water quality, do you believe 
that EPA has adequate clarification of its jurisdiction under 
the Clean Water Act to ensure protection of water sources? 
Please answer yes or no.
    Ms. McCarthy. Not as yet but we are certainly working on 
that.
    Mr. Dingell. I want you to give us some additional response 
on that because that is a matter of deep concern, I think, to 
you, and it is to me, too.
    Now, Madam Administrator, as these problems on the Great 
Lakes become more frequent, do you believe EPA will need 
further clarification of its Clean Water Act jurisdiction? 
Please answer yes or no.
    Ms. McCarthy. Yes, I do.
    Mr. Dingell. And I believe you are finding, Madam 
Administrator, that the actions taken by the Congress to 
foreclose you and EPA from getting us additional work in terms 
of rules and regulations clarifying the Supreme Court decision 
are extremely unhealthy, am I correct? Yes or no?
    Ms. McCarthy. We find them very difficult.
    Mr. Dingell. Now, I am sure you have seen a recent map 
published in the National Geographic showing what would happen 
if all the world ice were to melt. While this is a somewhat 
drastic scenario, it shows almost all of Florida and all of New 
Jersey submerged. It was not the map, however, that intrigues 
me most. The map showed little or no effect on the Great Lakes. 
Do you believe that EPA along with other Federal agencies have 
the tools necessary to predict what affects climate change 
might have on the Great Lakes basin and the region in which 
they exist? Please answer yes or no.
    Ms. McCarthy. Yes.
    Mr. Dingell. Would you submit additional information for 
the record as you deem it appropriate?
    Ms. McCarthy. I will.
    Mr. Dingell. Now, I would like to have a submission from 
you, Mr. Secretary, about what it is you are going to do about 
potential shortages and whether we have shortages coming on 
electric power because of the actions that are going to have to 
be taken with regard to global warming and matters of that kind 
and how that is going to affect our future in terms of the 
reliability and availability of electric power.
    And I thank you, Mr. Chairman.
    If you would submit that for the record, please.
    Mr. Moniz. And I will just note, sir, that we have a report 
of vulnerabilities of the energy infrastructure that will 
answer many of your questions. I might just add one factoid 
that there are projections that in an unconstrained world in 
terms of greenhouse gas emissions, we could see about a 2-foot 
drop in the level of the Great Lakes in this century, which 
would of course be very, very disruptive.
    Mr. Dingell. Industry is going to make a large number of 
retirements of plans because of----
    Mr. Whitfield. The gentleman's time is expired.
    Mr. Dingell. I thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. Mr. Chairman, thank you very much.
    And the argument about whether or not climate change is 
taking place, I know one thing by the argument that Mr. Barton 
had with the gentleman from California, something that is 
taking place and taxing the hard-working people of this country 
is taking place.
    And, Mr. Chairman, thank you for your opening statement 
when you set out, and it wasn't an estimate on your part. This 
is from the Congressional Research Service--they usually are 
pretty accurate--that the climate change funding for climate 
science technology, international assistance, and adoption was 
approximately 70 billion for the period 2008 to 2012.
    Now, Mr. Barton, you got better answers. I counted, I 
think, 12 or 15 of those people that didn't give you any answer 
it all. By no answer you got a better answer than I had 
received from Mrs. McCarthy about a year ago in the Science 
Committee if you remember coming before our committee there. 
And I may have asked you a question you didn't like and your 
answer was I am not in the business of creating jobs. That is 
out of the record itself. And I left word there if you wanted 
to apologize to the many millions of people that were 
unemployed and many of them hungry. And I have never seen that 
apology to this day.
    Actually, Mr. Chairman, I would like to ask unanimous 
consent to submit more of my questions in writing. I have more 
than the 5 minutes lets me make here.
    Mr. Whitfield. Without objection.
    Mr. Hall. That is taking place at 20 billion per year and 
we can figure that up however we want to. And I yield back the 
time. I thank both the witnesses for appearing.
    Mr. Whitfield. The gentleman yields back the balance of his 
time.
    At this time I would recognize the gentleman from New York, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Secretary Moniz, if we were going to reduce our carbon 
pollution, we need to deploy more clean energy and boost energy 
efficiency. Yesterday, the Department of Energy released its 
report showing that wind and solar power, LED lighting, and 
electric vehicles are growing rapidly in this country as a 
result of well-designed Federal and State incentives and 
investments in research and development. That being said, the 
report finds that as a result of these measures, ``the historic 
shift to a cleaner, more domestic, and more secure energy 
future is not some faraway goal. We are living it, and it is 
gaining force.'' I would like to ask unanimous consent to enter 
this report into the record, Mr. Chair.
    Mr. Whitfield. Without objection.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tonko. Thank you. The report contained a particularly 
striking graph about the cost and deployment of wind energy in 
the United States. Wind capacity has skyrocketed in our 
country, and I believe the committee has that graph. OK. We are 
posting it on the screen. Thank you.
    [Graph.]
    Mr. Tonko. Secretary Moniz, what has been the key to wind 
power's success? As you see, we have the graph itself on the 
display screen.
    Mr. Moniz. Well, I think the story, as I alluded to 
earlier, it is actually the same story that we saw decades ago 
with unconventional natural gas. We had investment from the 
Federal Government, we had public-private partnerships, and we 
had time-limited, well-crafted incentive that has these things 
taking off. We are seeing the same thing now with wind. As we 
can see, the deployment is very, very striking. And of course 
the cost certainly in good wind areas are quite competitive 
with other sources.
    The report has similar graphs, same kind of message, with 
photovoltaics. Solar energy, it is not fully appreciated how 
competitive solar is already in the right conditions, which is 
typical for this stage of a technology penetrating the market.
    Mr. Tonko. So is the response for solar as strong as this 
wind?
    Mr. Moniz. Perhaps stronger.
    Mr. Tonko. Super. What can we do to----
    Mr. Moniz. And also, if I may, in LEDs it is totally 
incredible. It has gone from, I don't know, 50,000 to 20 
million deployed in the country in a very short time, and the 
cost has gone from $50 to $15 and the lifetime savings from one 
LED is over $100.
    Mr. Tonko. Thank you. What can we do to ensure that today's 
R&D is utilized fully into emerging energy technologies so that 
we can achieve these same levels of success?
    Mr. Moniz. Well, first of all, we need to, as I said 
earlier, we need a sustained commitment to maintain the 
research development demonstration and deployment push. That is 
absolutely required. And these will be market-competitive 
technologies again sooner rather than later.
    The other thing is, of course, we would like to capture the 
full value of these developments and that involves other things 
that we are doing such as, for example, the advanced 
manufacturing partnership to really help establish the cutting-
edge manufacturing capacity and training in this country.
    Mr. Tonko. Um-hum. Energy efficiency is a key part of the 
President's Climate Action Plan. Energy efficiency is one of 
the cheapest and most cost-effective ways to reduce carbon 
pollution while saving consumers money, and it is a big part of 
the Department of Energy's responsibilities under the 
President's plan. Mr. Secretary, the President's plan calls for 
new energy efficiency standards for appliances and equipment. 
Why are energy efficiency standards a good way to reduce carbon 
pollution?
    Mr. Moniz. These standards apply to reducing all of our 
emissions, carbon emissions, as well as conventional pollutants 
by reducing the energy needs quite substantially. But I really 
want to emphasize all of our rules have a cost-benefit test and 
they also save money for consumers. The upfront marginal 
increases are overwhelmed by the energy savings at the consumer 
level.
    Mr. Tonko. Well, some believe that taking action to address 
climate change will kill jobs and cost consumers money. Is that 
an accurate description of these energy efficiency standards?
    Mr. Moniz. No, we believe that they create jobs for one 
thing by saving money in the economy that can be devoted to 
other purposes.
    Mr. Tonko. Um-hum.
    Mr. Moniz. And in addition it gives us products that we can 
sell globally.
    Mr. Tonko. Um-hum. I see that my time is up, Mr. Chair. I 
will yield back.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Again, welcome. I am glad to have both of you here today.
    Secretary Moniz, any serious plan for reducing greenhouse 
gas emissions substantially must have a strong nuclear 
component. Do you agree with that?
    Mr. Moniz. I am sorry. Could you repeat that?
    Mr. Shimkus. Nuclear power is critical and obviously having 
a greenhouse gas plan----
    Mr. Moniz. Yes, we are supporting nuclear power. Yes.
    Mr. Shimkus. Do you consider nuclear programs to be a 
critical part of this administration's plan?
    Mr. Moniz. Yes, it is all of the above, and nuclear is 
strongly there.
    Mr. Shimkus. So you probably weren't interested in 
following the last licensing case before the NRC and the only 
person who voted against licensing? That was the then-Chairman 
Jaczko, who was appointed by this President. So the concern is 
the conflicting signals we are seeing. You have got the 
presidential-appointed chairman of the NRC casting the only 
``no'' vote for licensing a new nuclear power plant in this 
country. And so that leads to the other questions.
    Under this administration how many nuclear reactors have 
closed down?
    Mr. Moniz. I believe there are five----
    Mr. Shimkus. It is actually six. We have got one in New 
Jersey, Wisconsin, California, Florida, and Vermont.
    Mr. Moniz. And five being built.
    Mr. Shimkus. Right, without the vote to license by the 
chairman of the NRC, who was appointed by the President. So I 
will give you that point, but you have to give me a point on 
jobs that a lot of jobs have been lost by the shutdown of these 
nuclear facilities.
    Under the President's Climate Action Plan, EPA is expected 
to propose a rule later this week setting greenhouse gas 
standards for new power plants that will require CCS 
technologies for any new coal plant built in the U.S. This is 
effectively, as many of us fear and Administrator McCarthy 
knows where I stand on this, a ban on new coal-fired power 
plants. Do you believe, as the Secretary of Energy, that it is 
defensible for the EPA to impose regulations that essentially 
ban the building of new coal-fired power plants in this 
country?
    Mr. Moniz. Well, I certainly am not going to comment on the 
ongoing----
    Mr. Shimkus. But from an energy position of the baseload 
demand or the requirements of this country in low-cost power, 
obviously removing coal-fired power plants from the fleet will 
raise costs?
    Mr. Moniz. Again, our job at the Department of Energy is 
to----
    Mr. Shimkus. Hopefully----
    Mr. Moniz [continuing]. Support the----
    Mr. Shimkus [continuing]. Production of low-cost energy for 
our consumers----
    Mr. Moniz. Making technologies----
    Mr. Shimkus [continuing]. And our manufacturers and the 
like.
    Mr. Moniz [continuing]. For coal in a low-carbon world. And 
I might add there is lots of activity already----
    Mr. Shimkus. Well, we are going to keep following on that 
course of questions. Is the DOE aware of any U.S. commercial-
scale power generation plant using coal as a fuel that 
captures, transports, and permanently stores carbon dioxide?
    Mr. Moniz. Well, as you know, there have been a number of 
demonstrations. There is the commercial----
    Mr. Shimkus. That is not the question. The question is is 
there one today----
    Mr. Moniz. Commercial plant 75 percent complete and 
Mississippi----
    Mr. Shimkus. But it is----
    Mr. Moniz [continuing]. And also although----
    Mr. Shimkus [continuing]. Not generating and not storing.
    Mr. Moniz. But if I may add, it is not a power plant, but I 
think we should not ignore the fact----
    Mr. Shimkus. That is another good point.
    Mr. Moniz [continuing]. That 12 years we have the Great 
Plains Weyburn project, 20 million tons have been used for EOR, 
and it is running on a commercial basis.
    Mr. Shimkus. All right. The point, as you know, CCS takes 
billions of dollars. There is no commercially available 
technology to do it. It is not being conducted right now for--
and I am going to turn to the administrator, who is a friend--
but for these new rules to be promulgated, it is a signal that 
we are not going to build new coal-fired power plants until 
there is at least a demonstrated ability to have this 
technology, and the concern is the costs are going to be great.
    Administrator McCarthy, has EPA ever established a new 
source performance standard for an emissions source on the 
basis of technology that has not been commercially proven by 
operation at commercial scale?
    Ms. McCarthy. We have in the past, for example, our use of 
scrubbers was seen as an innovative but----
    Mr. Shimkus. But it was commercially available at that 
time?
    Ms. McCarthy. It was----
    Mr. Shimkus. That is the whole difference between the clean 
air debate and the greenhouse gas debate is in the clean air 
debate technology was available. In the greenhouse gas debate 
it is not available. That is really the number one concern that 
we have. Do you want to----
    Ms. McCarthy. No----
    Mr. Shimkus. I mean do you agree with that or----
    Ms. McCarthy. Congressman, the rule has yet to be issued, 
but I will say that this is an issue that was heavily 
discussed. That is the reason why we are reproposing. We will 
have a full debate about this when the rule goes out, but I 
would indicate to you that this rule is not about existing 
facilities. It is about the future plants that are being 
constructed. And there are four plants that are planning on and 
designing in CCS at levels that would beat anything that we had 
proposed in our earlier proposal.
    Mr. Shimkus. And I hope you are right and I hope it is 
successful. The point is it will be costly.
    I am going to end on this, Mr. Chairman.
    And I think you have litigation issues that are unknown. 
The State of Illinois is applying for this, as you know. Mr. 
Secretary, you are doing your research there. There are other 
issues just than being able to, you know, get this down in deep 
sequestration aquifers.
    So thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. Ms. McCarthy, will you provide us a list of 
those four plants you just referred to?
    Ms. McCarthy. Certainly.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. And like my colleagues, 
I would like to welcome Administrator McCarthy and Secretary 
Moniz and thank you both for appearing today and look forward 
to our discussion. And I have enjoyed it so far.
    Administrator McCarthy, I have been concerned in the past 
that EPA has not taken DOE's concern about reliability 
seriously when developing utility rules. Can you commit to 
giving deference to DOE on grid reliability when drafting a 
rule for existing power plants? Is that part of the 
consideration with EPA?
    Ms. McCarthy. We have worked hand-in-hand in developing 
this proposal and we certainly will on the evaluation of 
comments in moving any rule forward.
    Mr. Green. OK. And I see the Secretary shaking his head, 
too, so I am glad you all are working together because even 
though we want as clean air as we can, we still want to be able 
to turn on the lights.
    Ms. McCarthy. Yes, sir.
    Mr. Green. And particularly in Texas have our air-
conditioning in the summer.
    I generally support the research and international efforts 
to address greenhouse gas emissions that the administration is 
undertaking. When it comes to regulating carbon from our 
industrial services, I do see that Congress should move past 
its gridlock and develop a regulatory plan instead of the EPA. 
I think Congress ought to do our job and particularly the 
Supreme Court said the EPA already has the current authority. 
But until Congress starts to legislate again, we can't sit here 
and just complain about the EPA are doing what the Supreme 
Court said it has the authority. Climate change is real and it 
is something that Congress should act on.
    Secretary Moniz, where are we with the CCS technology? I 
know that the plant in Mississippi may be up and running in the 
next year, but even that is not guaranteed. When do you 
reasonably expect CCS to become technologically and 
economically feasible?
    Mr. Moniz. Well, I think we should talk about carbon 
capture and sequestration. Certainly carbon capture, whether it 
be for combustion plants or for gasification plants, is 
demonstrated technology. We continue to invest in new 
technologies that will further reduce cost, but those are used 
technologies in various places, well, certainly in the 
petrochemical industry, in the former case, Great Plains plant 
in the second case.
    And on sequestration side, storage side, as I said earlier, 
this one plant, this one field in Weyburn for enhanced oil 
recovery has already stored 20 million tons. And largely in 
Texas actually we are using 60 megatons a year for producing 
300,000 barrels of oil. So this is a growing concern so the 
components are all there.
    Mr. Green. Well, and I think some of our concern is that we 
don't want the requirements to get past what either the 
technology or what you can capitalize to be able to deal with. 
And so there needs to be coordination there if that technology 
is there and there are examples of it. But is the plant up in 
Mississippi? Do we have a timeline on when they are going to 
actually be up and running?
    Mr. Moniz. I believe they are operating in 2014 or 2015. It 
is quite close. It is a gasification plant again, and again, 
the CO<INF>2</INF> will go to enhanced oil recovery in local 
fields.
    Mr. Green. Well, and there has been success in, you know, 
the Midland area, the Permian basin for, you know, enhanced oil 
recovery and we even have a pipeline from Mississippi to the 
Gulf coast to use so----
    Mr. Moniz. Yes.
    Mr. Green [continuing]. There are examples.
    Mr. Moniz. On average in Texas it has been about a half-a-
ton stored per barrel of oil produced.
    Mr. Green. OK. I appreciate it because it is a beneficial 
use. We can use it for----
    Mr. Moniz. Um-hum.
    Mr. Green [continuing]. Enhanced recovery. You testified 
that in developing the GHG regulations for existing power 
plants you engaged in the outreach to a broad group of 
stakeholders with expertise who can inform development of 
proposed standards and regulation guidelines, which you expect 
to issue in June of 2014. You also said that for us to be 
successful, the policy to be developed would have to promote 
economic growth. Some people say that any policy to address 
climate change is only going to do harm to our economy. To what 
degree will utilities play a role in developing these 
regulations? Is there a formal process already scheduled that 
they participate in?
    Ms. McCarthy. EPA has already engaged in a number of 
utility- and energy-related forums talking about this issue and 
we will engage with the utilities every step of the way. It is 
my concerted belief and I think you will see this as we talk to 
States that they are taking numerous actions already that are 
reducing greenhouse gases. There are so many States that 
already have renewable fuel standards, energy efficiency 
standards. They are working with their mayors to make their 
cities more efficient. There are ways in which we can recognize 
and understand how best we can shape these plans that States 
need to develop that will be beneficial to them from an 
economic perspective and beneficial to the U.S. and the world 
to reduce the threat of climate change.
    Mr. Green. Mr. Chairman, I know I am over time, but these 
power companies are actually part of that process?
    Ms. McCarthy. Very much so.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentleman from Louisiana, Mr. 
Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
holding this hearing and, Administrator McCarthy and Secretary 
Moniz, I appreciate you all being here talking about climate 
change policies.
    And of course a lot of this comes in the context of 
economic policy, how these policies have an impact on families, 
how they have an impact on the economy. We hear all the time 
from small businesses I meet with, I know talking to my 
colleagues the same thing. Some of the biggest impediments they 
have to creating jobs right now are policies coming out of 
Washington, and frankly, Administrator McCarthy, the policies 
coming out of EPA seem to be at the top of that list, a lot of 
the threats are coming out of EPA.
    And I know you are new to the current job you have and that 
you have been at the EPA in different roles throughout the 
years. And I don't know if you all recognize those impacts. We 
have talked about them before in our committee hearings, but 
when you look at the climate policies that you are proposing, I 
want to read a comment from you recently and get your take on 
it. I think the administrator said this recently. 
``Essentially, the President said that it is time to act. He 
said he wasn't going to wait for Congress but that he had 
administrative authorities and that it was time to start 
utilizing those more effectively in a more concerted way.''
    And so, Administrator McCarthy, when you talk about the 
President's task to you to act regardless of what Congress 
does, it causes a big concern not only to Members of Congress 
but to people across the country who believe in a democratic 
process where Republicans and Democrats work together. And 
Congress is the body that is supposed to shape law and then the 
President through his Secretaries, including you, are the ones 
who are supposed to administer the policies that Congress 
passed.
    And so when you are echoing the President, who says, you 
know what, I don't care if Congress didn't do it; it is time to 
act anyway, I hope you understand the chilling effect that is 
sent across the country. And I would like to get your 
interpretation of what you think the President means and what 
you think the authority you have to act is even if Congress 
chooses not to go down the path you want to.
    Ms. McCarthy. Let me rephrase the issue in a way that 
hopefully is a bit more positive. I think the President----
    Mr. Scalise. Because it is not positive when I hear those 
comments.
    Ms. McCarthy. I think the President has reached out and 
indicated that congressional action would be something that he 
would want to engage in and that he would welcome. I think what 
he has also told us to do is look at the laws that Congress has 
already enacted through their own public democratic process and 
what have they told the agencies that their responsibility is 
and their authority is. We are not doing anything at EPA or in 
the climate plan that goes outside the boundaries of what 
Congress has said is our mission and our authority.
    Mr. Scalise. Well, and I would hope you would keep that in 
mind as you develop policies because we are concerned about 
some of the things that you are doing in terms of them going 
against wishes of Congress. And the cap-and-trade bill that was 
defeated when there was a super majority in the Senate, so 
clearly Congress spoke that that is not something that we 
wanted. Just a few weeks ago we in the House voted. The vote 
was 237 to 176 to reject a carbon tax, an actual vote----
    Ms. McCarthy. Yes.
    Mr. Scalise [continuing]. On the House Floor to reject a 
carbon tax and it passed overwhelmingly with Democrats voting 
with Republicans. And in fact Barbara Boxer was recently quoted 
saying, ``we don't have the votes for carbon tax or carbon 
fee.'' I would hope you would take all of that into 
consideration when you are looking at climate change policies. 
Not only did we say we don't want it; we voted to reject a 
carbon tax. And so you need to take that into consideration. 
That is not an authority you have, and in fact, Congress has 
now said that is something that you don't have an authority. We 
reject that.
    I want to also bring up when you look at the impacts of 
these kind of policies how they are working in other countries. 
And again it has a real impact on our economy when some of 
these rules are proposed, but some of these other countries 
across the globe have already tried to go down this road in 
terms of climate change policy that you are looking at. There 
was just a revolt in Australia in their government, a complete 
upheaval because of their carbon tax. In fact, there is a 
movement with this new government to repeal the carbon tax.
    Read from the Telegraph just a few weeks ago, ``Brussels 
fears European industrial massacre sparked by energy costs.'' 
The Business Report, ``Merkel warns E.U. against tough carbon 
targets.'' Financial Times, ``European utilities warned E.U. 
over energy risks.'' Special Online, ``Germany's Energy 
Poverty: How Electricity Becomes a Luxury Good.'' It goes on 
and on. And the U.K. Express, ``3,000 pounds-a-year bills on 
the way as energy prices rise again.'' The Telegraph, ``Romanic 
Germany risks economic decline as green dreams spoils.''
    I hope you understand that in the countries that have tried 
this it is failing miserably. They are having revolts in those 
countries. So Congress has acted. Congress has sent a message 
to you. I hope you would respect those messages that have been 
sent not just here in Congress but look at what has happened in 
where they have actually gone down this road in other countries 
and they are seeing dramatic declines in their economy, 
dramatic increases in energy costs that hurt real families. 
These are the concerns we have. As you are looking at climate 
policy in your agency, recognize the will of the people here in 
this country.
    I yield back.
    Mr. Whitfield. The gentleman's time is expired.
    This time I recognize the gentlelady from California, Mrs. 
Capps, for 5 minutes.
    Mr. Waxman. Will Mrs. Capps yield to me for 30 seconds?
    Mrs. Capps. Yes, I will.
    Mr. Waxman. I just want to point out that there is no 
reason you should be mindful of proposals that even passed the 
House if they are not law. You have got to be mindful of what 
the laws are. And what you have to do is enforce the laws. So 
this argument you should pay attention to what Republicans were 
able to pass through the House is not a law.
    Thank you for yielding to me.
    Mrs. Capps. Thank you. Thank you also from me, 
Administrator McCarthy and Secretary Moniz, for appearing today 
and for your testimony.
    Given the immediate and long-term threats posed by climate 
change, I am very encouraged that we are finally having a 
formal discussion on this pressing issue. With Congress's 
inaction, the President's Climate Action Plan is a welcome step 
forward and we need to debate it because we need to cut carbon 
pollution. We need to help prepare for the impacts of climate 
change.
    Last February, I wrote a letter to the President signed by 
40 of my colleagues urging him to create a panel to help local 
communities to prepare for climate change impacts. One of our 
key recommendations in this letter was to fully evaluate the 
budgetary impacts of this problem. Climate change is already 
costing the Federal Government tens of billions of dollars in 
disaster assistance, right? By investing some of this money up 
front in resiliency measures we could minimize these costly 
impacts down the road and we could create jobs doing that 
implementation. So I was pleased to see the President included 
a similar task force on preparedness in his Climate Action 
Plan.
    Administrator McCarthy, can you discuss what the task force 
will be working on and to what extent it will be examining this 
budgetary impact? For example, will you be issuing findings 
comparing the long-term costs of inaction to those of building 
a more resilient infrastructure?
    Ms. McCarthy. Thank you for the question. As you recognize, 
the President's Climate Action Plan focused just as heavily on 
the adaptation question as it did on the mitigation issues in 
the international component. I think he did that recognizing 
the extreme concern that communities are facing now and the 
public health impacts associated with not recognizing that the 
climate is changing and preparing for that and making our 
communities more resilient in a changing climate.
    He established a task force to look at these issues. We are 
going to be working with every State and community. There is 
support already that has been recently issued by the Department 
of the Interior to look at resiliency projects, $100 million as 
a result of the Climate Action Plan moving this forward. We all 
have, each agency, developed Climate Action Plans. We are 
participating on both national forums as well as developing our 
own task forces to begin working with communities more 
effectively to integrate what we know about a changing climate 
into the work that we do. There is a great deal of work on 
going. It has been nurtured over the past few years, but it 
certainly has been given a boost in the action plan and will 
move this forward.
    Mrs. Capps. Thank you.
    Mr. Moniz. May I just have a----
    Mrs. Capps. Well, OK, but I have a question for you, too. 
Let me ask the question and then maybe you can weave that in.
    DOE currently focuses heavily on more mature technologies 
like solar and wind. While I support these efforts of course, I 
want to make sure we are not neglecting some other promising 
renewable technologies. For example, there are several 
companies, including Ecomerit in my district, which are 
developing exciting new technologies to reliably harness energy 
from ocean waves, tides, and currents. In fact, Ecomerit was 
recently awarded a $500,000 DOE grant to help develop its wave 
energy technology. This only scratches the surface, however, of 
public and private investments that are needed.
    So, Mr. Secretary, I was going to ask you, and you can 
respond any way want to, what does the President's Climate 
Action Plan do to expand the development of marine and 
hydrokinetic energy technologies?
    Mr. Moniz. Thank you. If I may just add----
    Mrs. Capps. Sure.
    Mr. Moniz [continuing]. A note to the earlier question that 
in addition to that task force, there has also been a specific 
Sandy task force led by HUD. The work that I described earlier 
on the micro-grid comes under that umbrella and that will be 
translatable to other parts of the country.
    Mrs. Capps. Absolutely.
    Mr. Moniz. Finally, under FEMA we also have 
responsibilities for DOE for, you know, energy infrastructure, 
other agencies for other parts of our national infrastructure.
    On your question to me----
    Mrs. Capps. Yes.
    Mr. Moniz [continuing]. It is very important that we not 
forget what are sometimes called the forgotten renewables, and 
that includes----
    Mrs. Capps. Absolutely.
    Mr. Moniz [continuing]. Hydrokinetic waves, tides, small 
hydro, advanced geothermal, and we are looking to increase our 
emphasis on those as we go forward.
    Mrs. Capps. Thank you. If I could follow up, I would love 
to have a written response on some of the ways that you want to 
do that that I could take back to some promising industries in 
my local district that would love some support like the one 
that was given to Ecomerit in terms of clean energy technology.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time I would like to recognize the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Secretary Moniz, you have recently taken over leadership at 
DOE and you understand the role of DOE in establishing and 
coordinating national energy policy. Can you tell us whether 
DOE is going to have an active role going forward in ensuring 
that the climate policies pursued by other Federal agencies do 
not negatively affect the affordability and availability of 
energy?
    Mr. Moniz. Thank you for the question. The principal way in 
which we will be doing that over these next, say, 3 years is 
the so-called quadrennial review process. That will be convened 
out of the Executive Office of the President but the Department 
of Energy will be establishing the secretariat and the 
analytical underpinnings. And that will involve the entire 
administration. So that will be our principal role there. And I 
can also assure you, as I have in previous testimony here, that 
we view our job in technology development as being to innovate 
to keep lowering the costs of energy for our consumers and our 
industry.
    Mr. Pitts. So you will review climate policies, regulatory 
initiatives of EPA that have the potential to negatively affect 
the affordability and reliability of energy?
    Mr. Moniz. Well, for processes--and Ms. McCarthy can 
answer--I mean of course we have review processes. What we will 
do in this context is help provide the threads, some of the 
analytics to bring together all the agencies to discuss energy 
policy broadly, environment, security, economy.
    Mr. Pitts. Administrator McCarthy, I want to understand 
with all the climate change-related programs that your agency 
pursues such as research, technology development, grants, 
education, and outreach, does your agency determine at the 
outset what those programs are supposed to accomplish and then 
go back and evaluate whether they actually did accomplish what 
they set out to do?
    Ms. McCarthy. We keep quite close track. And I would just 
add that many of the programs that we run are programs that 
Congress has specifically directed us to run and at specific 
funding levels.
    Mr. Pitts. Now, does EPA make information about what these 
programs have actually achieved available to the public?
    Ms. McCarthy. Very much so. We are quite----
    Mr. Pitts. Can you identify for us what or where that 
information is available?
    Ms. McCarthy. I can certainly provide that to you.
    Mr. Pitts. Now, EPA has been implementing climate policies 
for a number of years. Have you evaluated what that work has 
actually accomplished in terms of meaningfully addressing 
climate risk and could you share that with the committee?
    Ms. McCarthy. We certainly take a look at work that we do 
to understand what kind of greenhouse gas reductions might have 
been reduced, but as we all know, reducing climate risk is a 
global effort and the U.S. is participating in that effort as 
rigorously as we can.
    Mr. Pitts. Now, Ms. McCarthy, does EPA coordinate with 
other agencies when it evaluates the impact of its regulatory 
action relating to the power sector?
    Ms. McCarthy. Very much so. In every regulatory process all 
agencies participate in the interagency review. Part of that is 
to look at the cost-and-benefit analysis that EPA produces and 
to comment on both of those. Those are----
    Mr. Pitts. For example, have you consulted with the 
Department of Health and Human Services about the impact of 
energy poverty or higher energy prices on health or the ability 
to respond to extreme weather events?
    Ms. McCarthy. Well, what we have done is to ensure that we 
do a complete analysis to the extent that it is available to us 
and appropriate on what the economic consequences are of our 
rulemaking, and we take great pains to make sure that we do not 
threaten reliability, nor do we put out rules that will 
significantly increase cost to consumers.
    Mr. Pitts. One other question, Administrator McCarthy. The 
President's Climate Action Plan says on page 10 that ``curbing 
emissions of methane is critical to our overall effort to 
address climate change.'' And it refers to an Interagency 
Methane Strategy Group----
    Ms. McCarthy. Yes.
    Mr. Pitts [continuing]. That is identifying technologies 
and best practices for reducing methane emissions. I should 
also note that EPA's Web site indicates that we can cut methane 
significantly by reducing reliance on landfilling and 
increasing use of modern waste-to-energy facilities like the 
one in my district, the Lancaster County Solid Waste Management 
Authorities facility. Will you recommend to the Interagency 
Methane Strategy Group or may I request that you recommend the 
importance of focusing on ways to increase the United States' 
use of waste energy for managing nonrecyclable waste?
    Ms. McCarthy. We will raise that issue but I think if you 
see the tone and tenor of the President's remarks in the 
Climate Action Plan, it is an effort to understand where 
methane is being generated, how effectively to work with the 
industry on strategies that will reduce that methane and 
recapture it because it becomes a significant financial 
opportunity. Those are the kinds of things we certainly want to 
capitalize on.
    Mr. Pitts. Thank you.
    Mr. Moniz. If I may add, the $1 billion loan guarantee 
program that we will be issuing would include MSW technologies 
as a possibility.
    Mr. Pitts. Thank you, Mr. Chairman. My time is expired.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentleman from Pennsylvania, 
Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Administrator McCarthy, it is a pleasure to have you here 
today.
    Secretary Moniz, I just want to say your recent visit to 
Pittsburgh was appreciated and well-received by all of us in 
attendance and we hope to have you back there soon.
    Well, your visit is very timely today because many of us 
are eagerly awaiting the first rule regulating carbon pollution 
from power plants, the single-biggest emitter of carbon in the 
United States. And though I think the legislation to address 
climate change through a cap-and-trade system would have been 
an easier, more direct approach to limiting our Nation's global 
warming impact, we tried that here in this committee, and 
unfortunately, we were unable to get it passed.
    But having said that, I want to point out that where I live 
in southwestern Pennsylvania we are witnessing coal plant 
retirements nearly every month, which is impacting the economy 
and many of our constituents and potentially the reliability of 
the electric grid. Now, whether that is because of low natural 
gas prices, environmental regulations, or old age, the fact is 
we are taking a lot of old power plants off-line and making it 
very difficult to build new ones.
    So the central tenet of the President's Climate Change Plan 
is of course the new source performance standards for power 
plants. And it has been widely reported that the standard for 
new coal-fired power plants would require some type of CCS 
technology to comply. Now, I am aware of and have supported the 
creation of several demonstration projects for CCS across the 
country, but I am not aware that there is anyone that would be 
considered BSER, you know, the best system of emission 
reductions, as defined by the Clean Air Act. Can you tell me 
how CCS is going to achieve that requirement that BSER be 
adequately demonstrated considering cost, energy requirements, 
and environmental impacts?
    Ms. McCarthy. Congressman, first of all, it is good to be 
here. Thank you for the welcome.
    The first thing I would say is that relative to the 
retirements that you were discussing, we have been very 
strongly engaged with our energy colleagues to ensure that as 
retirements are happening that we work with our energy office 
and our agency and others to make sure that those issues are 
managed effectively, and we do not see that there is any gap in 
our communication system in ensuring that we can achieve those 
regulatory standards effectively without threatening 
reliability.
    In terms of the rule that is coming out, I do not want to 
speak exactly to what the rule is going to say. It would be 
inappropriate for me to do that. But I will say that on the 
basis of information that we see out in the market today and 
what is being constructed and what is being contemplated that 
CCS technology is feasible and it is available today.
    Now, that is not to give a signal about what is going on in 
the rule. That needs to be put in a broader as well as a more 
specific context and we will meet our regulatory obligation to 
look at what is possible and what we should be doing for new 
future power plants. Frankly, the challenge is that we need to 
provide certainty for how you construct a coal facility in the 
future that will allow investment in that technology and allow 
the technologies that you are investing in to grow and become 
more and more competitive and lower those costs.
    Mr. Doyle. Let me ask you a little follow-up to that 
because I am aware of the Kemper plant in Mississippi that has 
been cited. Now, that plant is utilizing an innovative 
technique that pipes the carbon dioxide emissions to depleted 
oil fields and uses the CO<INF>2</INF> to force oil to the 
surface. In Pennsylvania, that is a little less realistic for 
us unless we want to build a pipeline to Texas for our 
CO<INF>2</INF>, which I don't think is quite practical.
    I am just curious. How is EPA taking into account the 
regional differences that there are from, you know, different 
places in our country as we look at these technologies? You 
know, this seems to be working but it is not something that 
could work in my neck of the woods. And are you going to, you 
know, create guidelines that recognize the diverse fuel mix of 
the country and specifically those regions like southwestern 
Pennsylvania that are still heavily dependent on fossil fuels?
    Ms. McCarthy. Well, I think we all recognize that the use 
of CO<INF>2</INF> that is captured in enhanced oil recovery 
becomes very cost-beneficial in the use of CCS. There is no 
question about that. And we also see part of that being as a 
result there are significant pipelines that are being 
constructed to take advantage of those cost considerations.
    Now, there is also an opportunity to sequester, which is, I 
think, demonstration projects and investments that the 
Secretary can speak to, but there are also products that are 
being produced at the end of these design systems that actually 
can be sold. So there is a variety of things that we see 
developing that make it very promising for coal to have a 
certain future as the President intends in an all-of-the-above 
strategy.
    Mr. Doyle. Thank you very much. Mr. Chairman, I see my time 
has expired.
    Mr. Whitfield. Mr. Doyle, I may mention to you that this 
rule is expected out on Friday, I believe, by the 20th, and we 
will be having a hearing on the proposed rule.
    Mr. Doyle. Thank you.
    Mr. Whitfield. On Saturday afternoon. Will everybody be 
here on Saturday?
    At this time I recognize the gentleman from Nebraska, Mr. 
Terry, for 5 minutes.
    Mr. Terry. What an unexpected surprise to go this early. I 
appreciate that.
    So I am going to start off by asking unanimous consent to 
put the letter of our Attorney General from Nebraska, his 
letter to Gina McCarthy and a white paper that was done with 
other AGs into the record.
    Mr. Whitfield. Without objection.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. And the date of the letter is September 11, 
2013.
    It is particularly, Ms. McCarthy, important to note that 
our Attorney General is involved in this because, A) it is an 
impact to our State, but B) we are a public power State so he 
is a lawyer, in essence, for our public power generators. And 
they have a concern on the rules that are being promulgated. I 
know they aren't finalized yet but, nonetheless, in regard to 
coal as a new fuel, we have old coal-fired plants that probably 
aren't going to make it. They aren't going to be able to adhere 
to the new rules, so the issue is can we build new plants with 
coal since we are only a couple hundred miles from the Powder 
River basin, and this is by far the prominent feedstock for our 
generators?
    So he has a question and I have the same question and that 
is that does the EPA believe that it has the legal authority to 
eliminate coal as a fuel for nuclear electrical generation?
    Ms. McCarthy. We have the authority and responsibility to 
establish standards in the case of new facilities and 
guidelines where the individual States look at their own energy 
mix and come back to EPA with plans on how to comply. So I do 
think we believe that we are moving in a legally sound 
direction, but I would also caution you that one of the reasons 
we are re-proposing, Congressman, is because there were a lot 
of comments on our original proposal. There were comments on 
the technology, there were legal concerns, so I would ask that 
we have this conversation in a more concrete way when the new 
source rule comes out and to not also project what we are doing 
in the new source as being either appropriate or legally 
correct for existing facilities because neither is the case.
    Mr. Terry. All right. And I appreciate that answer and it 
would be easier if we had the final rule.
    Ms. McCarthy. Well, we haven't even proposed one yet, sir. 
We are planning to re-propose a rule.
    Mr. Terry. OK.
    Ms. McCarthy. So we will have certainly plenty of time----
    Mr. Terry. Well, we certainly have concerns regarding our 
ability to use the cheapest and most readily available feed 
source for electrical generation----
    Mr. Whitfield. Mr. Terry, I may just interject one moment. 
We were truthfully so shocked by the original rule that----
    Mr. Terry. Yes.
    Mr. Whitfield [continuing]. We are anticipating what the 
new rule is, so, sorry.
    Mr. Terry. Well, and to follow up on that though is with 
the newly to-be-proposed rule after the comments, is there 
still room for new coal electrical generation?
    Ms. McCarthy. I think that the rule will provide certainty 
for the future of new coal moving forward, and I think in terms 
of existing facilities, we believe that coal represents now and 
will continue to represent a significant portion of the energy 
supply moving forward for decades to come.
    Mr. Terry. All right. How about there has been several 
questions regarding nuclear power as well, and can we even meet 
what the new greenhouse gas standards will be without nuclear 
power as part of the portfolio?
    Ms. McCarthy. The new source standard isn't designed to 
influence the existing portfolio. It is designed to ensure that 
future power plants that are being constructed to take 
advantage of technologies that will ensure that they are as 
clean as they can be and have a past certain and a future that 
will be carbon-constrained.
    Mr. Terry. Well, it is important, I think, to have nuclear 
power which has basically zero greenhouse gas emissions----
    Ms. McCarthy. I think the President----
    Mr. Terry [continuing]. To be part of our portfolio and----
    Ms. McCarthy. The President certainly shares your concern 
that we make room for all fuels and all power generation types.
    Mr. Terry. Yes, we are going to grade on actions, not 
words. So I appreciate that.
    Mr. Moniz. And if I may add on that, sir, I would note that 
we went through, in my view, a lot of years with words and not 
actions and we are now seeing actions and not words, $8 billion 
loan guarantees for nuclear new programs on small modular 
reactors. So I would say that we are walking the talk.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentlelady from California, 
Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    And I thank our distinguished witnesses for joining us 
today.
    I applaud the administration for taking on climate change, 
and I strongly support the goals of the President's Climate 
Action Plan to cut carbon pollution and better prepare our 
country for the impacts of climate change. Human-caused climate 
change is real, it is happening now, and it will continue to 
produce devastating effects unless we take immediate action. 
Failure to act in an urgent manner is shortsighted and 
detrimental to our environmental and economic interests.
    Some say that addressing climate change will cost too much 
money but they neglect to consider the cost of inaction, as 
well as the tremendous economic benefits of positioning our 
country as a global leader in clean energy. Clean energy 
industries currently employ hundreds of thousands of Americans 
and the potential growth in this sector is enormous. My home 
district of Sacramento boasts 14,000 clean energy jobs. 
Throughout the United States, there are already 119,000 solar 
jobs and 80,000 wind jobs. Thousands more are employed in 
energy efficiency and other areas. This is a sector that could 
create millions of jobs and lead to faster economic growth.
    But we do have competition. According to the Pew Charitable 
Trust, last year, China invested $65 billion in clean energy 
compared to only $36 billion in the United States. The U.S. 
ranked 10th in clean energy investments per dollar of GDP 
behind China, all of Europe, Canada, Australia, South Africa, 
and Japan.
    Secretary Moniz, these other countries recognize the 
economic potential of clean energy. What are they doing to 
capitalize on it?
    Mr. Moniz. They meaning other countries?
    Ms. Matsui. Yes.
    Mr. Moniz. Clearly, I think people are seeing frankly, you 
know, trillion-dollar markets developing. They are developing 
now for clean energy to address climate, to address air 
pollution, just to advance technology. And certainly a country 
like China, as you know, is providing significant incentives 
for domestic manufacturing capacity.
    Ms. Matsui. Well, you know, the United States has always 
been a leader in clean energy technologies but clearly we are 
really facing these competitive challenges from abroad. The 
President's Climate Action Plan is a critical step to ensure 
not just that we address the dangers of climate change but also 
that the United States can compete and lead in the clean energy 
economy of the future. Secretary Moniz, how will the 
President's Climate Action Plan spur clean energy innovation in 
the United States and create new clean energy jobs here at 
home? Do you believe that the United States can once again lead 
the clean energy revolution?
    Mr. Moniz. I certainly think we can and we must lead that 
revolution. And I will mention two ways in which we are moving 
forward. And the one is, for example, through our continuing 
loan program to bring, as I said earlier, many, many 
technologies to the fore. I mentioned utility-scale solar has 
been a huge success and California has been a big part of that 
but also the loan program for advanced fossil and for nuclear. 
It is across the board for these technologies.
    Another different kind of initiative I alluded to earlier 
are things like the Advanced Manufacturing Initiative where we 
want to capture things like 3-D printing, which can apply to 
new energy technologies, as well as a host of other 
technologies. So those are some of the things that we are 
moving forward.
    Ms. Matsui. Um-hum. Well, thank you. Now, my Republican 
colleagues are quick to argue that tackling climate change will 
hurt the economy, but in reality, climate change itself poses 
an enormous economic risk, and failure to address it could be 
disaster for the global economy.
    In May CBO released a report concluding that delaying 
action to reduce carbon pollution would increase the expected 
damage from climate change by increasing the risk of very 
costly, potentially even catastrophic outcomes. The Clean Air 
Act provides a very good example of how we can make steady 
progress in cleaning up the air while growing the economy. 
Since its enactment in 1970, the Clean Air Act has reduced key 
air pollutants in the United States by 2/3 while the economy 
has tripled in size. Administrator McCarthy, what does the 
history of the Clean Air Act tell us about our ability to cut 
pollution while building the economy?
    Ms. McCarthy. Thank you for asking the question.
    We know that in our experience under the Clean Air Act we 
have been able to significantly lower pollution while at the 
same time GDP has risen and the economy has grown. We know that 
the economic goals do not have to conflict with our 
environmental standards, and we also know, in fact, that this 
country is where it is because we have both cleaned our 
environment, kept it safe and healthy for our families, 
recognized the public health value and environmental value that 
represents, while we develop an economy that respects those 
needs as well. We are asking for that same strategy to be 
employed as we tackle what I believe to be the most significant 
public health challenge of our time, which is climate change.
    Ms. Matsui. I thank you very much and I ran out of time.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time I recognize the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I think we can agree that the CO<INF>2</INF> levels are 
undeniably increasing and some scientists and climatologists 
have concluded that their energy models reflect that 
CO<INF>2</INF> levels coincide with temperature increases. Now, 
we were supposed to have some charts up here. These are the 
models that have been suggested by many of the scientists and 
climatologists, but however, as you well know, these models are 
key components of developing climate change policy, but 
unfortunately, as we are finding out, this is the projection 
but here is the reality of temperature changes over the last 40 
years. Actually, we can say over 40 years there has been almost 
no increase in temperature, very slight. In fact, the 
CO<INF>2</INF> levels even with the increased greenhouse 
CO<INF>2</INF> level emissions, the Arctic ice has actually 
increased by 60 percent as shown by the aerial view. Also that 
Antarctica is expanding. But more importantly, this report 
coming out of the United Nations, the IPCC report coming up is 
saying that most experts, most experts believe by 2083, and 70 
years, the benefits of climate change will still outweigh the 
harm.
    That leads to the question today. What should be done about 
it? We hear the testimony from the Administration that all 
climate change is manmade and America needs to reduce its 
CO<INF>2</INF> emissions. Let's put this in perspective. 
Hypothetically, let's assume that all coal-fired generation in 
America were curtailed, all coal-fired generation were 
curtailed. According to the United Nations and the IPCC, this 
would reduce the CO<INF>2</INF> levels of the globe by merely 
\2/10\ of 1 percent by ridding all coal-fired power in the 
United States.
    The Administration also needs to remind people, as you 
heard from the chairman in his opening remarks, that manmade 
problems, if we could, only represent 4 percent of all the 
emissions of the globe. Natural emissions represent 96 percent. 
So as a result, this Administration is, by virtue of this 
stream of job-killing regulations, is putting our Nation at 
risk all in the idea of clinging to the notion that cutting \2/
10\ of 1 percent is going to save the world environment.
    Let me remind, the rest of the world is not listening. The 
President's energy policy is not being followed. China, India, 
Russia, and Europe are all expanding their use of coal. The 
Administration is working now on a new global initiative, 
exporting uncertainty. According to the President, he is not 
going to allow low-interest loans to be made to developing 
nations around the world. Struggling nations to come out of 
poverty will continue to suffer. Lives will be lost. Children 
will be sick and perish as a result of this President's support 
of this policy.
    One of the biggest moral responsibilities of the United 
States should be to help emerging nations come out of poverty. 
The most abundant and resourceful source of power is coal. For 
a nation to emerge from poverty, it must have access to energy, 
energy for refrigeration, for cooking, and commerce.
    Just to give you an example, in the sub-Saharan of Africa, 
the total amount of power that they can generate in Africa is a 
60 watt light bulb per person, a 60 watt light bulb for 3 hours 
a day, 60 watt light bulb for 3 hours a day. Why should they be 
denied access to affordable energy so they can come out of 
poverty? Please take this message back to the President.
    This President must not prevent people around the globe 
from obtaining affordable, dependable energy. And threatening 
American jobs over \2/10\ of 1 percent of the CO<INF>2</INF> 
emissions is not an acceptable energy policy. Crushing 
America's economy to reduce the CO<INF>2</INF> levels by \2/10\ 
of 1 percent is an abuse of his presidential authority.
    Now, if I could in just the time, I am just curious from 
both of you the issue now is we are 400 parts per million. Can 
you tell me what level do you want it to be? Is it what many 
people are promoting, 300 parts per million?
    Mr. Whitfield. You all can respond but his time is expired.
    Mr. Moniz. OK. I would like to respond, Mr. McKinley. There 
were a lot of issues you raised there. If I may focus down for 
the sake of response, first of all, as I have said before in 
this committee, the issues in terms of the risks of climate 
change are not based just upon models, as I said. It is some 
pretty simple arithmetic. Number two, I don't believe anyone 
has ever said that quotes ``all climate change is manmade.'' 
The statement is that the anthropogenic forcings from 
CO<INF>2</INF> are clearly of the scale that have long been 
expected to produce the kinds of change that we are seeing and 
will see.
    Third, I think we should address--there are many things but 
let me focus on the hiatus, so-called, in the increase of 
warming temperatures. First of all, let's not forget this 
decade is the warmest decade in recorded history. So it is not 
exactly like it has been cooling off.
    But secondly, the issues of decadal scale changes in the 
rate of increase are fully expected. El Nino, La Nina, for 
example, are part of this. Those models at that time did not 
include other issues such as deep water warming, et cetera.
    I will give you an example. There is an article right now 
in Nature whereby looking at the observed surface water 
temperatures in the Pacific, putting them in in the East 
Central Pacific, putting them in, it comes completely with this 
hiatus and it is only a hiatus in the constant global warming. 
So I believe we have to say this is a misreading of the record.
    The statement stands that anthropogenic CO<INF>2</INF> 
emissions and other greenhouse gas emissions are a driver at 
the level of multiple degrees centigrade in this century. We 
are up .9 so far. And that is very consequential. In fact, I 
remind you that we wouldn't be here if it weren't for the 
greenhouse effect of water vapor, which has provided 60 degrees 
Fahrenheit of surface warming. We are just tuning that by a few 
degrees centigrade at great peril.
    Mr. Whitfield. We are going 2 minutes and 35 seconds over 
so----
    Mr. Waxman. Mr. Chairman, I would like to ask unanimous 
consent that we put in the record a study by Dr. Benjamin 
Santer, atmospheric scientist at Lawrence Livermore National 
Laboratory, where he says neither volcanoes nor the sun nor 
internal variability nor any combination of those natural 
factors can plausibly explain the atmospheric temperature 
changes we have actually observed from space since 1979.
    Mr. Whitfield. Without objection.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. And I also would like to put in the record 
your photo of how ice has expanded by almost a million square 
miles in the last year in the Arctic Circle.
    Mr. Waxman. Reserving the right to object. And I would like 
to be recognized on my reservation.
    Mr. Whitfield. Absolutely, recognized.
    Mr. Waxman. Well, Mr. Chairman, I think this illustrates 
why we need a committee where we bring in the scientists. I 
just thought the statements that the gentleman from West 
Virginia read to us were incredibly inaccurate and contrary to 
everything else everybody in the scientific community has to 
say, including Secretary Moniz, who is an MIT professor for 40 
years, he was the Department of Physics' head of the Linear 
Accelerator Center, undersecretary of DOE, a Ph.D. in 
theoretical physics from Stanford University. We need 
scientists to come in here and talk about science, not----
    Mr. Whitfield. So, Mr. Waxman, are you objecting to this?
    Mr. Waxman. Well, I just want to make that point but I will 
not object.
    Mr. Whitfield. OK. Well, I won't object to yours, either.
    And at this time I would like to recognize Dr. Christensen 
from the Virgin Islands for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman. And I am really 
glad we are having this hearing.
    And of course I support President Obama's sensible plan to 
address climate change by reducing carbon pollution and helping 
communities to prepare for the impacts of climate change.
    In reading your testimony and hearing your testimony I 
applaud the open approach to setting the standards that has 
been engaging and will engage all of the stakeholders and their 
concern in the process. Despite this, we continue to hear a lot 
of criticism of the President's plan from our Republican 
colleagues, and like our Ranking Member Waxman, I would simply 
ask, what is their plan? The President has said he is willing 
to work with anyone who wants to propose alternatives. And I am 
glad that if Congress won't act, he will. And I am also glad 
that both of you included in your testimony that the economy 
also benefits from the prior responses, has benefited from 
prior responses to climate change.
    My district in the U.S. Virgin Islands and the other 
territories are really on the forefront of this issue of 
climate change. And like our panelists from the Safe Climate 
Caucus forum yesterday are already experiencing the impact of 
that change. In the Virgin Islands, we have already endured a 
serious coral reef bleaching event that significantly impacted 
our fisheries, and by extension, our tourism product and our 
economic stability. If we were to continue to do nothing, we 
could expect increased ocean acidification, sea level rise, 
which will impact our coastal infrastructure, and of course 
more intense storms, as much of the country is experiencing.
    So it is absolutely and abundantly clear that climate 
change is real and that we have to act. And it is important 
also, as was discussed with Congresswoman Matsui, that our 
country lead on this really vital issue.
    But as we respond, we also have to make sure that we 
transition to cleaner energy sources in a way that is workable, 
especially for communities with the greatest economic 
challenges. In the Virgin Islands and the other territories, we 
rely still very heavily on diesel generation, and at 53 cents 
per kilowatt today, electricity prices are the highest in our 
country. So we really have a strong incentive to scale up 
affordable renewable energy and energy efficiency, but it is 
going to take some time.
    So, Administrator McCarthy, I think you have answered my 
first question. I think you have made it clear that the rule 
you propose on Friday will apply only to new power plants, 
correct?
    Ms. McCarthy. That is correct.
    Mrs. Christensen. And next, you would start to work on a 
rule to reduce carbon pollution from existing power plants?
    Ms. McCarthy. Yes.
    Mrs. Christensen. So it is going to be particularly 
important for my constituents that we find cost-effective 
solutions that work for our specific circumstances and I think 
the same is true for all of the territories and the State of 
Hawaii given the high prices that we are already paying and the 
challenges related to being an island and where we are located.
    So I also have read in your testimony that you plan to work 
with the States and the territories to ensure that you 
understand our specific circumstances as we do these things. So 
under the provisions of the Clean Air Act, do States and 
territories have the flexibility to achieve carbon pollution 
goals in ways that work for them? Do you anticipate that that 
flexibility will be there?
    Ms. McCarthy. That is correct.
    Mrs. Christensen. OK. And, Secretary Moniz, as we look to 
the future of our energy supply system, do you see promising 
technology-based solutions that will allow places like the 
Virgin Islands and the other territories to meet our 
electricity needs with clean as well as affordable power? And 
what do you see as the most promising areas?
    Mr. Moniz. Um-hum. Yes, I do and I also recognize that in 
fact islands often have the biggest challenge in that 
combination of risk and high energy prices. That is where, 
first of all, I think not being dependent upon particularly oil 
imports is very important, and that is where renewables can be 
very important. And also I think there is at least one 
advantage in an island setting and that is transportation based 
upon electricity and/or natural gas can be more attractive 
because the driving range issues are not as important. So I 
think there is a real future for green islands and we would be 
delighted to work with you on that.
    Mrs. Christensen. Where are we with ocean thermal 
conversion?
    Mr. Moniz. With ocean conversion----
    Mrs. Christensen. It seems like it would be a good source.
    Mr. Moniz. Yes, and so we continue to do research on that. 
That is a case where if you saw that curve that was shown 
earlier with cost dropping and deployment, we are still in the 
early stage of that curve. There is still a ways to go in terms 
of cost reduction. But the research is going on and there are 
some pilot projects in various parts of the world.
    Mrs. Christensen. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time I recognize the gentleman from Kansas, Mr. 
Pompeo, for 5 minutes.
    Mr. Pompeo. Great. Thank you, Mr. Chairman.
    Ms. McCarthy, I want to ask a couple of questions of you. 
So one of the objectives today is to identify greenhouse gas 
regulations that already existed and those in the future and 
how they actually impact the climate change, right? So you 
would agree that we want to make sure we have a successful 
climate policy as a result of those sets of rules and 
regulations that you promulgate, fair? Fair baseline statement?
    Ms. McCarthy. In the context of a larger international 
effort, yes.
    Mr. Pompeo. You bet. And on your Web site you have 26 
indicators used for tracking climate change. They identify 
various impacts of climate change so you would believe that the 
purpose of these rules is to impact those 26 indicators, right? 
So if you put a good greenhouse gas rule in place, you will get 
a good outcome on at least some or all of those 26 indicators?
    Ms. McCarthy. I actually think that the better way to think 
about it, if I might, is that it is part of an overall strategy 
that is positioning the U.S. for leadership in an international 
discussion because climate change requires a global effort. So 
this is one piece and it is one step, but I think it is a 
significant one to show the commitment of the United States.
    Mr. Pompeo. Makes perfect sense, but you think it would be 
reasonable to take the regulations you promulgate and link them 
to those 26 indicators the you have on your Web site and say 
this is how they impacted them?
    Ms. McCarthy. It is unlikely that any specific one step is 
going to be seen as having a visible impact on any of those 
impacts, a visible change in any of those impacts. What I am 
suggesting is that climate change has to be a broader array of 
actions that the U.S. and other folks in the international 
community take that make a significant effort towards reducing 
greenhouse gases and mitigating the impacts of climate.
    Mr. Pompeo. But these are your indicators, Ms. McCarthy, so 
these are----
    Ms. McCarthy. They are indicators of climate change. They 
are not----
    Mr. Pompeo. Right. Precisely.
    Ms. McCarthy [continuing]. Directly applicable to 
performance impacts of any one action.
    Mr. Pompeo. How about the cumulative impact of your 
actions? Certainly, you are acting in a way, you say these are 
the indicators of climate change. It certainly can't be the 
case that your testimony today is that your cumulative impact 
of your current set of regulations and those you are proposing 
isn't going to have any impact at all on any of those 
indicators?
    Ms. McCarthy. I think that the President was very clear 
what we are attempting to do is put together a comprehensive 
climate plan across the administration that positions the U.S. 
for leadership on this issue and that will prompt and leverage 
international discussions and actions.
    Mr. Pompeo. So you are putting regulations in place for the 
purpose of leadership but not to impact the indicators that 
you, the EPA, says are the indicators of climate change? I am 
deeply puzzled by that.
    Ms. McCarthy. Congressman, we are working within the 
authority that Congress gave us to do what we can, but all I am 
pointing out is that much more needs to be done and it needs to 
be looked at in that larger context.
    Mr. Pompeo. So in 2010--it is in your opening statement--we 
have gotten rid of a whole bunch of greenhouse gas, about 6 
billion metric tons. For example, one of your indicators is 
heat-related deaths. How many heat-related deaths have been 
eliminated as a result of the 2010 NHTSA rules?
    Ms. McCarthy. You can't make those direct connections, 
Congressman; neither can I.
    Mr. Pompeo. Right. So there is literally no connection to 
the activities you are undertaking and to the----
    Ms. McCarthy. I did not say that.
    Mr. Pompeo. Well, you said you couldn't make the 
connection, so tell me what I am misunderstanding. Can you draw 
connections between the rules you are providing, the 
regulations you are promulgating and your indicators or is it 
just on a----
    Ms. McCarthy. I think what you are asking is can EPA in and 
of itself solve the problems of climate change. No, we cannot. 
But the authority you gave us----
    Mr. Pompeo. Right.
    Ms. McCarthy [continuing]. Was to use the Clean Air Act to 
regulate pollution. Carbon pollution is one of those 
regulated----
    Mr. Pompeo. Right.
    Ms. McCarthy [continuing]. Pollutants and we are going to 
move forward with what we can do----
    Mr. Pompeo. Yes.
    Ms. McCarthy [continuing]. Is reasonable and appropriate.
    Mr. Pompeo. I am actually not asking that question that you 
suppose that I am asking.
    Ms. McCarthy. OK. I am sorry.
    Mr. Pompeo. I didn't ask if you had the capacity to solve 
greenhouse gas issues. What I asked was is anything you are 
doing doing any good as measured by the indicators that you 
have provided for--so is your testimony today that you just 
have no capacity to identify whether the actions EPA has 
undertaken has any impact on those indicators? This is about 
science----
    Ms. McCarthy. Yes.
    Mr. Pompeo [continuing]. Cause-and-effect. Is there any 
causal relationship between the regulations you have 
promulgated and the 26 indicators of climate change that you 
have on your Web site?
    Ms. McCarthy. The indicators on the Web site are broad 
global indicators----
    Mr. Pompeo. They are not broad; they are very specific.
    Ms. McCarthy [continuing]. Of impacts associated with 
climate change. They are not performance requirements or 
impacts related to any particular act.
    Mr. Pompeo. I actually like the indicators. They are 
quantifiable.
    Ms. McCarthy. They are great.
    Mr. Pompeo. Heat-related deaths, change in ocean heat----
    Ms. McCarthy. Yes.
    Mr. Pompeo [continuing]. Sea level rises, snow cover----
    Ms. McCarthy. Yes.
    Mr. Pompeo [continuing]. Those are great, quantifiable 
things but----
    Ms. McCarthy. Yes.
    Mr. Pompeo [continuing]. Now what you are telling me is----
    Ms. McCarthy. They indicate the public health impacts 
associated with----
    Mr. Pompeo. Exactly.
    Ms. McCarthy [continuing]. Climate change. Yes.
    Mr. Pompeo. But what you are telling me is you can't link 
up your actions at EPA to any benefits associated with those 
quantifiable indicators that the EPA itself has proposed as 
indicative of climate change?
    Ms. McCarthy. I think what we are able to do is to show--
and I hope we will show this in the package that we put out for 
comment--is what kind of reductions are going to be associated 
with our rules, what we believe they will have in terms of an 
economic and a public health benefit. But it again is part of a 
very large strategy.
    Mr. Pompeo. Awesome. My time is up. Thank you.
    Mr. Moniz. If I may just----
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentlelady from--I am sorry. Did you have 
a comment?
    Mr. Moniz. Well, I was going to comment briefly that there 
is academic literature that does associate extremely hot days 
with mortality, and I would be happy to provide that paper.
    Mr. Pompeo. That would be great. Thank you.
    Mr. Whitfield. At this time I recognize the gentlelady from 
Florida, Ms. Castor, for 5 minutes.
    Ms. Castor. Well, thank you, Mr. Chairman, and thank you 
very much for calling this hearing on the Obama 
Administration's Climate Action Plan. And, Administrator 
McCarthy, thank you very much for your leadership and 
willingness to assume the challenges as EPA administrator and 
it is good to see you today. And, Secretary Moniz, same goes 
for you. Thank you for being here.
    Now, my Republican colleagues' arguments today relating to 
carbon pollution and the changing climate are reminiscent of 
their arguments and the arguments of special interests in the 
past when it comes to updating our standards relating to 
pollution and health standards and a clean environment. They 
predicted as they always do we are going to have a rise in 
unemployment; the unemployment rate is going to skyrocket. They 
predict the economy will go into a tailspin if America tackles 
pollution and climate problems. It is an argument they raise 
every time America acts to set better standards for air, for 
water, for children's health.
    All you have to do is think back to the 1970s. I am old 
enough to remember what the mornings were like before the Clean 
Air Act and how smoggy it was when you would come out of your 
house and you could smell it and taste it. And then the country 
had the wherewithal to adopt the Clean Air Act. And over 
decades, our air has improved. Same can be said in the 1990s 
when it comes to acid rain. It can be said how America tackled 
the problem of chlorofluorocarbons that were depleting the 
ozone layer. The same can be said when it comes to cancer-
causing chemicals in plastic. Plastic industry did not 
collapse, did it? There is probably more plastic around today 
than ever before.
    So I would say to my Republican colleagues: have confidence 
in America's ability to innovate in the face of significant 
challenges, challenges like climate change. And coming from a 
vulnerable State like Florida, I think what we see clearly 
ahead of us is there is a greater cost to an action.
    Look at what citizens across my State and all across the 
country will face in rising insurance premiums when it comes to 
extreme event. We are debating flood insurance right now. And 
that is going to be tied more and more to the changing climate 
and sea level rise in the future. Think about what local 
governments and communities are going to have to do to invest 
in infrastructure. In the State of Florida we are investing a 
great deal now to protect our clean water supply and the 
drinking water supply from the rising bays and oceans that are 
going to intrude on the drinking water supply, the saltwater 
intrusion. Communities are having to invest now to protect 
infrastructure, just the plain old pipes under the ground that 
we need to operate as a normal community all up and down the 
coast.
    So I see in the face of more droughts, more floods, longer 
fire seasons, more intense fires, faster sea level rise, it is 
very important that we take action. The costs ahead of us will 
be inordinate if the Congress continues to ignore it. So I am 
glad that the Administration is taking leadership here.
    Secretary Moniz and Administrator McCarthy, in general, 
let's talk about cost and benefits. When you propose a major 
rule, you are legally required to analyze the cost and the 
benefits of that rule, isn't that correct?
    Ms. McCarthy. Yes.
    Ms. Castor. In fact, hasn't cost-benefit analysis been 
required for agency rulemaking ever since President Reagan 
signed an Executive Order on cost-benefit analysis in 1981?
    Ms. McCarthy. That is my understanding, yes.
    Ms. Castor. And it is called cost-benefit analysis because 
you are required to estimate both the cost and the benefits of 
government action, is that correct?
    Ms. McCarthy. That is correct.
    Ms. Castor. If you didn't look at both the costs and the 
benefits, the information wouldn't help you assess the merits 
of a rule. If you only looked at cost, no rule would ever be 
worth it. In fact, Mr. Secretary, DOE recently issued a rule to 
require microwave ovens to be more energy efficient. As part of 
that rulemaking, DOE was required to estimate the cost and 
benefits of the new standards by reducing the use of 
electricity. The rule will reduce air pollution, including 
carbon pollution. That is one of the benefits of the rule, 
isn't that right? Did the rule include an estimate of cost of 
the carbon pollution that would be avoided by the rule?
    Mr. Moniz. Yes, it did. And indeed, the need to do that 
comes from a court ruling in 2007.
    Ms. Castor. And how did you get to that number? Was it 
developed through an interagency process and was it based on 
peer-reviewed science?
    Mr. Moniz. Yes, the process formally started in 2009. It is 
based upon three highly peer-reviewed models. There has been 
transparency on the models back in 2009/2010, every rulemaking 
that also opens up for comments going forward. The recent 
change in the numbers was strictly updating the peer-reviewed 
models using them with the same inputs used previously.
    Ms. Castor. Thank you.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time I recognize the gentleman from Ohio, Mr. 
Latta, for 5 minutes.
    Mr. Latta. Well, thanks very much, Mr. Chairman, and thanks 
very much for having the hearing today. And I also want to 
thank the Secretary and the Administrator for being with us 
today. I have appreciated the comments today.
    And, Mr. Secretary, if I could start with a question to 
you. As the chairman had earlier stated in his opening remarks, 
when the President came into office, Congress took into 
consideration what was essentially his climate plan. Congress 
considered whether we would embark on a complicated and 
expensive regulatory program that was intent on massively 
decarbonizing our energy supply and raising our energy costs. 
And we were told the U.S. must take the lead.
    Mr. Secretary, do you think it is economically wise for the 
U.S. to unilaterally implement policies that will result in 
more expensive energy costs for American households in 
manufacturing? And this question is really important for a 
district like mine because I have 60,000 manufacturing jobs. 
And I spend all my time on the road going through large 
meetings, small plants across my district. And what was 
happening here in Washington affects these plants and it 
affects jobs back home. So, again, do you think it is 
economically wise for the U.S. to unilaterally implement 
policies that can result in more expensive energy for these 
manufacturing facilities and for American households?
    Mr. Moniz. First of all, in no small part due to the shale 
gas boom, we are actually seeing lower costs in many, many 
industries and a growth in many----
    Mr. Latta. Well, if I could just interrupt for a minute 
because in the State of Ohio 70 percent of our energy is coal-
based.
    Mr. Moniz. Yes. Again, across the country certainly we are 
seeing more manufacturing, lower energy prices, and in fact in 
Ohio there is also the issue of developing shale gas now.
    Secondly, in terms of the U.S. moving forward, I would say 
that, number one, American leadership is indispensable if we 
are going to have international action. But secondly, there is 
very much, I believe, the self-serving interest of developing 
the new technologies that will in fact give us a strong 
position in a future multitrillion-dollar market.
    Mr. Latta. OK. Continuing on with that, if I could just 
continue on with the questions to you. Again, in the Climate 
Action Plan and also in your testimony, we are talking about 
the three pillars that you mentioned, and the third point being 
that the United States needs to lead the international effort. 
And especially when we are talking about the climate issues, 
what does the Administration mean by the U.S. taking that 
leadership role and does this mean that we are supposed to be 
the first nation that decarbonizes our energy supply on a very 
large scale and expects the rest of the world to follow? Or 
what is that leadership?
    Mr. Moniz. I would say it means that, first of all, we do 
lead in clean energy and I believe we do lead for sure in clean 
energy innovation. We have to help deploy it. We are working, 
for example, the Department of State in terms of the--if you 
like the policy level--has made tremendous progress in the G-20 
context and with China in terms of HFCs. And at the Department 
of Energy we are working through a variety of mechanisms.
    For example, we lead what is called the Clean Energy 
Ministerial, which is advancing dialogues with other countries. 
For example, in many countries now we have active dialogues 
going on where our companies are working with companies in 
those countries. I will mention countries I have been in, 
Brazil, for example, recently, yesterday in Vienna, Monday with 
Turkey, et cetera. They are very interested in our technologies 
for industrial energy efficiency. This is a market for our 
companies to go out there, both services and technology. That 
is what we mean by leading.
    Mr. Latta. Also I see from your testimony page 8 you talk 
about how you are finalizing the rule covering the standby 
power of microwave ovens and you go on with the proposals for 
the lamp fixtures, commercial refrigerators, and commercial 
walk-in coolers and freezers. And I guess the question is are 
there any other appliance rules that you see that are being 
planned in the future?
    Mr. Moniz. Yes, indeed, and I would be happy to supply a 
list of those. The next one we have said--the next proposed 
rulemaking we hope to advance in November on electric motors.
    Mr. Latta. OK. And if you have any other appliances that 
you see coming up in the future if you could supply that to the 
committee----
    Mr. Moniz. Certainly. I would be happy to write a list.
    Mr. Latta [continuing]. We would appreciate that.
    Mr. Moniz. And I might add that in addition to the 
rulemaking we are, when it is appropriate--for example, right 
now with set-top boxes, we are pursuing voluntary discussions 
because, frankly, when the industry and consumers can come 
together and agree on a rule that we think is good, that will 
actually get the rule implemented faster. So we work both on 
the rulemaking and on convening voluntary approaches to 
efficiency standards.
    Mr. Latta. Thank you, Mr. Chairman. My time is expired and 
I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. Thank you, Mr. Chairman, for holding today's 
hearing.
    And like you and Chairman Emeritus Barton and many 
colleagues on my side of the aisle, I am disappointed that so 
many of the Administration's experts that are working to 
justify and put out new carbon rules decided not to educate the 
public by testifying here this morning. The 2 out of 13 
attendance ratio does not bode well for the most open, 
transparent Administration ever. But I am sure we will find out 
where these people are, these people tomorrow that do their 
jobs after we leave here.
    But we do have the few and the proud. Secretary Moniz, 
Administrator McCarthy, welcome. My question will focus on 
refineries, the U.S. energy renaissance, and power grid issues 
in Texas. First of all, refineries: Ms. McCarthy, much of 
today's discussion has been about the President's carbon plan, 
and it has been about the power sector, but I also worry about 
EPA's next steps for the refineries.
    Less than 1 month ago your EPA announced that the Houston 
area was on track to attain ground-level ozone standards by 
2018. Your EPA put up ``these reductions are even more 
impressive given Houston's rank as one of the fastest-growing 
metropolitan areas in the country.'' But rather than 
recognizing success, EPA is already working on more strict 
ozone and so-called Tier 3 rules. And we keep hearing rumors of 
new rules for greenhouse gases in the refining space. All this 
could mean billions of dollars, billions in compliance costs. 
These costs will hit families hard and be passed on to average 
drivers across the country in places like Sugar Land, Pearland, 
and Katy, Texas.
    So briefly--I say briefly because I am limited time here--
can you tell me when to expect these carbon rules for 
refineries, what window of time frame, ma'am?
    Ms. McCarthy. I don't have a time frame for you.
    Mr. Olson. No time frame, OK. Will you commit to study the 
cumulative cost of all these rules when we consider the impacts 
of carbon regulations on refineries?
    Ms. McCarthy. Well, I will certainly commit to following 
whatever protocols we are required to do, sir.
    Mr. Olson. In the following what I call the Chairman 
Emeritus Dingell rule, answering yes-or-no questions, yes or 
no, can you guarantee that your rules will not raise gasoline 
prices? Yes or no?
    Ms. McCarthy. I don't know what rules you are referring to 
and I would never make guarantees to anything, sir.
    Mr. Olson. OK. All right. A further line of question, this 
is about the U.S. energy renaissance. As you know, Ms. 
McCarthy, carbon emissions from the United States have fallen 
in recent years without these new regulations. And there are 
many factors, but a significant reason is the increased use of 
American natural gas.
    Ms. McCarthy. Um-hum.
    Mr. Olson. And again, the Dingell rule, yes or no, do you 
agree that hydraulic fracturing and horizontal drilling have 
created an American energy renaissance that is helping to slash 
carbon emissions? Yes or no?
    Ms. McCarthy. Yes or no, it is a complicated question. I 
will take it very short. I believe that certainly the new 
technology has advanced our ability to capture natural gas 
domestically. That has been a wonderful thing from both air 
quality as well as domestically, and I think that answers your 
question.
    Mr. Olson. I will take that leaning yes. Yes or no, would 
carbon emissions be higher today if fracking were banned or 
regulated out of existence? Yes or no? No fracking, higher 
emissions?
    Ms. McCarthy. I can't make that direct connection, sir. You 
are asking me really complicated questions for yes or no.
    Mr. Olson. OK. I don't think it is that complicated but the 
answer is pretty clear you think it is yes.
    And one final question, this is for you, Secretary Moniz, 
as well. My home State, as you know, is in desperate need of 
new reliable power. At a time when we are looking at blackouts 
in 2014 and 2015 without more power generation, the EPA is 
considering carbon rules that can essentially mandate partial 
carbon capture and sequestration. Now, I am not opposed to CCS. 
As we discussed earlier in my testimony, you came here a couple 
months ago, my district is actually home to one of the only CCS 
modifications in the country, the W.A. Parish plant outside of 
Needville, Texas.
    Mr. Moniz. Um-hum.
    Mr. Olson. Again, another yes-or-no question. Secretary 
Moniz and Ms. McCarthy, do you believe that CCS technology is 
currently economic for most coal plants, not just the Parish 
plant in Needville, Texas, which is valuable because we have 
oil and gas right there, right on the property. They can get 
the carbon there quicker.
    Mr. Moniz. As we said, sir, earlier, I mean the combination 
of the CCS with EOR is very attractive.
    If I may just have one thing, Mr. Chairman. Since this 
issue has come up many times about the two of us being here, I 
just want to say that, first of all, there has been no trouble 
occupying 3 hours with two of us, but secondly, I know my 
colleagues, our colleagues across the Administration would be 
delighted to have a conversation about all of these issues.
    Mr. Whitfield. Thank you very much. The gentleman's time is 
expired.
    I will say to you that you are right, it took up a lot of 
time today. We are going to get back in touch with those other 
agencies and either meet with them individually or through 
letter exchange. So we are going to follow up with them.
    At this time, I would like to recognize the gentleman from 
Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And I thank you 
both for being here and for your service to your country and 
for the last few hours have given us.
    Secretary Moniz, I have heard you speak in favor of the 
President's Climate Action Plan, and to that extent I 
understand the concerns surrounding the reduction of greenhouse 
gas emissions being expressed. That being said, statements from 
energy experts have said electrical prices are projected to 
have increased over 40 percent since 2001, which is well above 
the rate of inflation, and it will continue to rise due to the 
requirements of EPA clean air and environmental standards.
    In addition to this, over 60 percent of our Nation's clean 
power generation actually comes from nuclear power, which is 
virtually emissions-free, and I am very concerned with the 
efforts of your agency in regards to the future of the nuclear 
energy sector. I believe that any serious plan to reduce 
greenhouse gas emissions must have a strong nuclear component, 
yet the number of nuclear plants that have announced their 
retirement this year has grown to almost epidemic portions and 
more are expected in the near future. Let me just ask you first 
off, and keep it, you know, as brief as possible, what are your 
goals for the growth of the nuclear energy sector overall?
    Mr. Moniz. Well, first of all, I mean the closures 
obviously have a bunch of factors. In one case there was an 
equipment issue in California.
    Mr. Kinzinger. Sure.
    Mr. Moniz. In Vermont it is principally----
    Mr. Kinzinger. But a lot of it is age. We haven't built new 
plants----
    Mr. Moniz [continuing]. Natural gas----
    Mr. Kinzinger [continuing]. In 20 years' time.
    Mr. Moniz. They are older.
    Mr. Kinzinger. Understood.
    Mr. Moniz. But the Department of Energy, before I was 
there, have for years already been supporting things like life 
extension technologies, et cetera. So that is one direction. 
Another is we are still working on the provisional loan 
guarantee for the Vogtle plants. It is really important to get 
some of these new plants built.
    Mr. Kinzinger. Has the DOE actually closed any of those 
loan guarantees?
    Mr. Moniz. Well----
    Mr. Kinzinger. No.
    Mr. Moniz [continuing]. On nuclear----
    Mr. Kinzinger. Why not?
    Mr. Moniz [continuing]. Just the--it is an ongoing 
negotiation and a----
    Mr. Kinzinger. Because it has been a while, I know, so----
    Mr. Moniz. All I can say is----
    Mr. Kinzinger [continuing]. I hear the discussion about 
it----
    Mr. Moniz. All I can say is that I have taken a direct 
interest in this.
    Mr. Kinzinger. OK. Because I mean from our perspective I 
hear the Administration use, and in fact I heard you a number 
of times today use the loan guarantees as promise for, hey, we 
support it, but these are all conditional. They are not 
finalized. And when you have a number of plants closing because 
of the age of these plants and we are very slow to replace that 
capacity--and let me ask you this. Do you believe that the 
greenhouse gas targets set out by the Administration can be met 
without the use of nuclear power?
    Mr. Moniz. Clearly, the 17 percent goal for 2020 is what 
you are referring to, which we are kind of almost halfway 
there. Clearly, if there are a lot of nuclear power plant 
closures in that time, that will certainly make it more 
difficult.
    Mr. Kinzinger. And I know this is just we are asking you to 
guesstimate, how many more nuclear plants do you think will be 
put out of commission before those targets would become 
unattainable?
    Mr. Moniz. On that I do not know but I can tell you that I 
am hoping to have discussions with the industry to try to 
understand better where that is going. I mean nuclear power 
plants that exist still do have, you know, pretty low marginal 
costs, which would make them attractive, but as we know, the 
lower natural gas prices has lowered the clearing price in many 
parts of the country.
    Mr. Kinzinger. Sure. Absolutely. And again, I want to make 
the point of what we were talking about earlier, that there are 
no loan guarantees in existence right now. They are 
conditional.
    And I will just say to finish up--I won't take all my time; 
hold your applause, please--if the Administration was serious 
about addressing climate change, I think it would harness the 
clean energy from nuclear power, as we have been talking about. 
At a minimum it would follow the law. I heard a lot of 
discussion about following the law today. And it would 
reconstitute the Yucca Mountain program and provide a solid 
basis for the NRC to issue new plant licenses.
    And so I thank you for your time today. I thank you for 
your testimony. And, Mr. Chairman, I will yield back.
    Mr. Moniz. Well, we are following the law.
    Mr. Whitfield. The gentleman yields back.
    At this time, you all may have noticed Ms. Schakowsky is 
over here, and we have sort of ignored Ms. Schakowsky. And she 
is a member of the Energy and Commerce Committee, but she is 
not a member of this subcommittee, so traditionally, we finish 
all the subcommittee members before we go to Ms. Schakowsky. 
And Mr. Griffith, Ms. Schakowsky, has said that he has noted 
you sitting over there patiently, so I would like to recognize 
you for 5 minutes if you would like to ask your questions now 
because he----
    Ms. Schakowsky. Well, I thank you both, especially Mr. 
Griffith for that courtesy.
    I believe that the threat to at least human life on our 
planet is the greatest challenge that humankind has faced. And 
I feel so strongly that this Congress, this Congress, is in a 
moment of such great opportunity where we could take leadership 
on behalf of the United States, on behalf of the countries 
around the world that we could benefit economically. This is a 
moment of great opportunity that I fear as a member of the 
Energy and Commerce Committee that we are squandering. And I 
look at some of the young people in this audience; this is 
their century, and I feel an obligation that we try and do 
something about this.
    I would like to see if either of you have a comment about 
this issue of coal and this promulgated ruling that is about to 
come out. Some of the charges are that it would have basically 
an insignificant effect on climate change, and that it actually 
would jeopardize the economic opportunities of people in poor 
countries and further impoverish them. That is a pretty heavy 
charge. I wonder if you, Madam Administrator, could give us 
some answer to that----
    Ms. McCarthy. I would be happy to begin.
    Ms. Schakowsky [continuing]. And Secretary Moniz.
    Ms. McCarthy. What I would say is that the reason why the 
power plant sector is one of the first places to go to regulate 
carbon pollution is because it is by far the largest industry 
sector in terms of its generation of greenhouse gases. The 
second reason is that there are opportunities to reduce 
greenhouse gases, and that will position us in the energy 
future. And I think there is every reason why we should want to 
tee up ideas and options for how to do that effectively, taking 
advantage of modern technologies that we can take advantage of 
and escalate their introduction both in the U.S. as well as 
internationally. That is what is going to make significant 
differences, not just what we are doing here, but its impact in 
moving cleaner technologies forward.
    The issue of the international discussion I think that you 
will see that the language in the President's Climate Action 
Plan is very detailed on this issue. It in no way steps back 
from both the intent of the United States and our obligation to 
work with the developing countries to ensure that they mature 
and provide energy for their citizens. And the language in here 
is not inconsistent with that goal. It will not minimize our 
efforts towards that goal. What it does say, however, is that 
we need to be careful about how we are investing and we don't 
want developing countries to make mistakes that we might have 
made in not positioning themselves for the best technologies 
available in a carbon-constrained world.
    Mr. Moniz. I would just add that the Climate Action Plan, 
as far as the things like the Ex-Im Bank, does have an 
exclusion for the least-developed countries.
    Ms. Schakowsky. I see. Let me just say how much I 
appreciate your being here and the fact of having the EPA 
Administrator and the Secretary of Energy at a single hearing, 
I am sure we will have and I hope you will have an opportunity 
to hear others, but, you know, that is not an everyday 
occurrence and I want to thank you for that.
    I also want to associate myself with Mr. Waxman's plea that 
has been made more than once that we have scientists come in 
and talk to us. And we can, you know, have the kind of forum 
where the science could be challenged, could be questioned 
where if there is differing opinions, but I am wondering in the 
seconds I have is there really a significant difference of 
opinion about the science of climate change?
    Mr. Moniz. Well, again, I would argue that at the level of 
the broad impacts in my view there is none. I think there is 
again very, very simple arguments as to why this is expected.
    I also observed that the pattern of effects was predicted 
decades ago. This is not somehow being made up. Clearly, there 
are specific--when you start drilling down to specific issues, 
it is very complicated science. So earlier, we had a discussion 
about the last several years have seen a slowdown of warming. 
And as I pointed out, this is not out of the expectations on 
decadal scales, but that is a case where the scientists are 
still having some argument over the specific driver.
    Recent papers, as one example, have links essentially the 
El Nino/La Nina issues to that, but that is an example of 
something that still remains to be worked out. It does not 
obviate the overwhelming conclusion and the overwhelming 
support for what is going on in terms of global warming.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time I recognize the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    I did appreciate the comments about using as we move 
forward so that we don't impoverish the other nations and 
impoverish our own Nation that we use modern technologies as we 
move forward. The problem that I think we have and I would say 
that the countering plan is is that we ought to make sure those 
technologies are available first before we put regulations in 
place that then cause us to lose an entire segment of our 
population's jobs and our energy production, et cetera. And 
that has been my concern all along.
    And coming from a coal-producing region, I can tell you 
that the policies already, not even counting the ones that are 
going to come out later this week or ones that may come out in 
the next few months, are devastating the economy of my 
district. And it is quite moving when you see these people. 
These are hardworking men and women who are out there trying to 
do jobs. It is not just the coalminers. It is the jobs that are 
relied upon, the coalmines, and, you know, every time I turn 
around there is another manufacturing company that was relying 
on the coal industry that is going out of business or needed 
affordable electricity that is going out of business. There is 
another coalmine about every other week and I am losing a 
coalmine in my district. Those are people who are making about 
$75,000 a year that aren't making it now.
    And then probably the biggest blow that any of my 
communities has received, and while in fairness the two first 
factors they listed were the double-edged scissors of 
ObamaCare, they also listed the fact that the economy is so 
poor in the area, and it is a coal-producing part of my 
district. And we just lost a hospital in my district. And so 
now some of my constituents are going to have to drive an hour, 
hour-and-a-half to get to cardiac care and hospital. This is 
not a good thing.
    And when we look at the cost-benefit analysis, we don't 
always look at the fact that if people don't have the ability 
to afford the electricity in their homes that they then have to 
cut back on things and they have to cut back on some important 
things. If you can't heat your home effectively in the 
wintertime--and in the mountains of Virginia, sometimes it gets 
pretty cold--that can affect your health. If you are having a 
problem with your heart and all of a sudden instead of being 
able to go to the local hospital because of policies enacted 
here in Washington, you have to drive an hour, hour-and-a-half 
to get to heart care, that is going to have an impact on your 
health. There is just no way around that.
    And I think that we need to look at these things, and when 
we say that, oh, this is all going to be grand and all going to 
be great, I think we have to get the science and the 
breakthroughs and the technological breakthroughs out there 
first before we say we are going to shut down a lot of coal-
powered plants because the technology is not out there for 
everything that needs to be done in order to make them 100 
percent.
    And when you look at poverty, and I noticed that the 
gentleman earlier referenced a German article, ``How 
Electricity Became a Luxury Good,'' I don't think that the 
people of the United States of America consider electricity to 
be a luxury good, and I don't think we want to be at the point 
where they have a minister, in this case you, Ms. McCarthy, in 
equal the German environment Minister Peter Altmaier giving out 
tips on how you don't preheat your oven to do cooking and maybe 
if you lower the contrast and the brightness on your 
television, you can bring down your electric bill because the 
Germans have put themselves in a position where people can't 
afford it. I don't want that for my country but it is hitting 
my district hard right now. And so I hope that you would take 
that into consideration.
    And along with those things, I know that the President 
outlined the goal of 17 percent reduction in 2005 greenhouse 
gas levels by 2020, and he mentioned that also at a climate 
speech in June at Georgetown University, and I heard Mr. 
Secretary say earlier that we are about halfway there. I guess 
my question is is that from programs from the EPA or is that 
from plant shutdowns? And how much of the programs that the EPA 
has enacted brought down those greenhouse gases in the last 5 
years? Can you quantify how much the programs have brought 
down?
    Ms. McCarthy. Let me just put the goal in a little bit of 
perspective. I think that that goal clearly was stated in the 
Climate Action Plan but in no way does that Climate Action Plan 
say that those actions are going to add up to that 17 percent. 
It is a start at looking at the most economically viable 
opportunities----
    Mr. Griffith. And you know that the 17 percent----
    Ms. McCarthy [continuing]. To grow the economy and address 
greenhouse gas----
    Mr. Griffith. And I apologize, my time is running out. The 
17 percent, was that just a number that was picked out of the 
air or was there some scientific basis for it and can you give 
me that basis?
    Ms. McCarthy. I believe that it was an international goal 
that was stated.
    Mr. Griffith. All right.
    Ms. McCarthy. There was certainly some analytics but it was 
not directly associated with that plan, but it remains a goal 
that we would like to achieve.
    Mr. Griffith. I mean I understand we know we are going to 
try to reduce greenhouse gases, but do we know specifically how 
much each program will give us? And that being said, if you 
could get that to me later because my time is just about out.
    Ms. McCarthy, I truly believe when you are here to testify, 
and I have told people in my district that I think you do care 
about the plight of folks----
    Ms. McCarthy. I do.
    Mr. Griffith [continuing]. And so I would ask you to commit 
whether it is my district or one of the other districts in 
central Appalachia that has been hit so hard, if we set up a 
trip, would you come down and see what is happening in the 
district of the people and where the jobs are just disappearing 
and there are lots of towns with empty storefronts and----
    Ms. McCarthy. Congressman, I will follow up----
    Mr. Griffith [continuing]. It looks like a ghost town?
    Ms. McCarthy. I will follow up directly with you on that.
    Mr. Griffith. All right. I appreciate that very much.
    And, Mr. Chairman, with that I yield back.
    Mr. Moniz. If I could just say that about half of the 
reductions so far have been from the shale gas revolution, 
purely market-driven, and another part of it has been, 
especially in the transportation sector, the efficiency 
standards holding demand down.
    Mr. Whitfield. The gentleman's time is----
    Mr. Waxman. Which were based on regulations, isn't that 
correct?
    Mr. Moniz. Correct.
    Mr. Whitfield. At this time I would like to recognize the 
gentleman from New York, Mr. Engel, for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman.
    Let me say that I am applauding our committee for finally 
having a hearing on climate change. I want to say that it is 
obvious to me and to everyone else the science is undeniable 
and it is time for us to act. And Congress has been ducking 
this issue even going so far as to deny the basic science 
behind climate change. I have seen the devastating affects 
right in my area when Hurricane Sandy hit New York, New Jersey, 
and Connecticut, and my district suffered huge devastation. 
Rising seas, stronger storms, and greater flooding will only 
increase if we choose to do nothing.
    So if Congress unwilling to act on the issue, I am very 
happy the President has decided to act. And though some may 
deny the existence of climate change, the science is clear. If 
people object to the specifics of the President's plan, then 
they should propose their own plan for curbing carbon pollution 
and climate change and the committee should actively pursue 
this matter.
    We also know from experience that government can regulate 
pollution without hurting the economy. In fact, many of the 
ideas that will help reduce carbon pollution will also grow new 
industries in renewables, carbon capture technology, and other 
new technologies that will help mitigate climate change.
    So, Secretary Moniz, let me ask you, you mentioned in your 
testimony the devastation that Sandy wrought upon New York, New 
Jersey, and Connecticut. One of the major issues arising from 
that was the loss of power and the length of time that it took 
to return. Can you speak to what the Department of Energy is 
doing in regard to electricity reliability and how that works 
with the President's Climate Change Plans?
    Mr. Moniz. Yes, thank you. I will mention two areas. One is 
in the context of our general work on kind of the electric grid 
of the 21st century we are folding in very heavily resilience 
issues, as well as the kind of renewables and other drivers of 
that technology. And I mentioned earlier that one specific 
project we just had announced in New Jersey looking at a micro-
grid to support a major transportation corridor, which by the 
way would also be an important evacuation route for New 
Yorkers.
    The second thing, which is very important, and we are 
working closely with industry with API, the American Petroleum 
Institute, and the EEI. What we learned in Sandy a little bit 
the hard way was how the electricity infrastructure and the 
transportation fuels infrastructures are so interdependent. So 
we are working on that and being positioned for any future 
event.
    Mr. Engel. So implementation of these plans is ongoing? We 
can expect that soon?
    Mr. Moniz. Yes, it is. We hope to have a product that we 
will put out at the end of the month, for example.
    Mr. Engel. Thank you. I have been a long supporter of 
alternative fuels for transportations. Besides electric 
vehicles that you mentioned, what are other alternative fuels 
is the Department of Energy working on?
    Mr. Moniz. Well, we certainly support--and particularly for 
heavy vehicles--looking at the issue of natural gas as a 
transportation fuel. We of course have a very extensive program 
on advanced biofuels moving to cellulosic biofuels, for 
example. And these are again a case where costs are coming down 
quite dramatically, not quite there yet but coming down 
dramatically.
    And of course electrification again costs have dropped 
dramatically, not yet for the long-range vehicle for the mass 
market but the penetration is happening much faster than it did 
at the comparable stage for hybrid vehicles, looking very, very 
interesting.
    And then more to the future, the hydrogen economy and fuel 
cells, that remains kind of a little bit earlier in the 
development. But I would say alternative liquid fuels and 
electricity are looking actually quite interesting.
    Mr. Engel. Thank you. I know you both have been here a long 
time so, Administrator McCarthy, I am going to submit a couple 
of questions for you and spare you from having to answer it. 
But I thank both of you----
    Ms. McCarthy. Thanks.
    Mr. Engel [continuing]. For your hard work----
    Mr. Waxman. Would the gentleman--
    Mr. Engel [continuing]. And----
    Mr. Waxman. The gentleman from New York, if----
    Mr. Engel. Yes?
    Mr. Waxman [continuing]. You have completed your questions, 
I would like to just make a--
    Mr. Engel. Certainly.
    Mr. Waxman [continuing]. Yield to me the time?
    Mr. Engel. Yes, sir.
    Mr. Waxman. I just want to make a comment on the hearing, 
which I think has been an excellent hearing.
    We are at a critical crossroads in this country in our 
energy policy, and if we decide to do nothing, which I sense is 
what the Republicans want is to do nothing, it is going to lead 
to more carbon pollution, more droughts and floods, and other 
extreme weather events, more billion-dollar disasters and 
relief bills to pay for them by the taxpayers. If we take that 
path, history will not treat us kindly. We will be the 
generation that ignored the warnings of scientists and left 
future generations a violent and inhospitable climate.
    On the other hand, there is another path. We have a 
shrinking window for action but we still have a window to act. 
And Secretary Moniz told us that this is the critical, crucial 
time this decade. If we act now, if we invest in solar, wind, 
and other clean energy sources, if we unleash American 
ingenuity, we can stop carbon pollution and protect our 
atmosphere and create millions of new clean energy jobs.
    I want to thank the two witnesses who have been very, very 
helpful and terrific in being here all this time. I hope we 
will all put aside our partisan differences to help achieve 
these goals. They are very important ones for the future of our 
country and the rest of the world.
    Thank you, Mr. Chairman. Thank you, Mr. Engel.
    Mr. Whitfield. Thank you, Mr. Waxman.
    And I would also say how much we appreciate the two of you 
being here today. We do think it is a major accomplishment that 
our CO<INF>2</INF> emissions are lower than they have been in 
20 years. And as we move forward, I think we all want a 
balanced approach. We want to protect the environment but we 
also want to make sure that we have a strong, viable economy 
and that we don't want to be left in a noncompetitive position 
in the world marketplace.
    And I hope that you all look as forward to being with us in 
the future as we look forward to being with you again here. We 
spent 3 or 4 marvelous hours together. And that will----
    Ms. McCarthy. We will be back, Mr. Chairman.
    Mr. Whitfield [continuing]. Conclude today's hearing, but I 
would remind Members that they have 10 business days to submit 
questions for the record, and I ask that the witnesses all 
agree to respond promptly to the questions that we submit to 
you all.
    So thank you again and we look forward to working with you 
as we move forward.
    Mr. Moniz. Chairman, thank you for holding this hearing.
    Mr. Whitfield. Thank you.
    Mr. Moniz. We appreciate it very much.
    Mr. Whitfield. Thank you. That concludes today's hearing.
    [Whereupon, at 1:22 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 <all>

</pre></body></html>
